Department             of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE SERVICES PROVIDED TO

 RESIDENTS OF SKILLED NURSING

           FACILITIES





                     @ SE RVJCt~
             ~..$’                 %
                                       7

         $
                                           JW     GIBBS BROWN
         .<
          z                                Inspector   General
          z
           ~+2
                +%43”
                2
                      $

                                              OCTOBER 1994
                                              0EI-06-92-O0863
                    OFFICE OF INSPECTOR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, as amended, is to protect the integrity of the Department of Health and Human
Services’ (HHS) programs as well as the health and welfare of beneficiaries served by
those programs. This statutory mission is carried out through a nationwide network of
audits, investigations, and inspections conducted by three OIG operating components: the
Office of Audit Services, the Office of Investigations, and the Office of Evaluation and
Inspections. The OIG also informs the Secretary of HHS of program and management
problems and recommends courses to correct them.

                        OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either
by conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations in order to reduce waste, abuse,
and mismanagement and to promote economy and efficiency throughout the Department.

                       OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and
of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions, administrative sanctions, or civil money pemlties, The 01 also oversees
State Medicaid fraud control units which investigate and prosecute fraud and patient abuse
in the Medicaid program.

               OFFICE OF EVALUATION                AND INSPECTIONS

The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
Department, the Congress, and the public. The findings and recommendations contained
in these inspection reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. This report was
prepared under the direction of Ralph Tunnell, Regional Inspector General (Dallas) and
Chester Slaughter, Deputy Regional Inspector General (Dallas). Assisting Dallas staff
with this report were staff from OEI Central Office.

Dallas Staff                                                              OEI Central Office

Leah Bostick                                                                Cathaleen Ahem
Kevin Golladay                                                                 Brian Ritchie
Pamela Smith                                                                 Jennifer Antico

For further information contact: Ralph Tunnell at 214/767-3310 or 1/800-848-8960.
Department         of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




MEDICARE SERVICES PROVIDED TO
 RESIDENTS OF SKILLED NURSING
           FACILITIES




             +<‘      “*
         ~w
         A
         *
         w
         z
         5
          %
           %
               $
               %.J3a
               2
                           JUNE GIBBS BROWN
                           Inspector General

                              OCTOBER 1994
                              0EI-06-92-O0863
                   EXECUTIVE                     SUMMARY

PURPOSE

Thepurpose ofthis study was l)todescribe the Medicare Supplemental Medical
Insurance (SMI) services provided to residents in Skilled Nursing Facilities (SNFS) and
2) to identifi and discuss known or potential program Vulnerabilities, as well as issues
involving SNF residents requiring further review.

BACKGROUND

Medicare provides extended care to qualified beneficiaries in a Medicare-participating
SNF. The extended care benefit was designed to reduce the length of stay in acute care
hospitals and is covered by the Hospital Insurance (HI) program. In addition to receiving
services through the HI extended care benefit, residents may receive services covered
through the SMI program, such as physician care and outpatient services.

Data presented in this report were obtained from a one-percent sample of all Medicare
beneficiaries receiving Medicare extended care benefits during 1991 or 1992. Discussions
of program vulnerabilities are drawn from our review of applicable law and regulations
and analysis of the services depicted in our sample. Additionally, we reviewed findings
from prior Office of Inspector General (OIG) reviews and fraud alerts for evidence
illustrating program vulnerabilities,

DESCRIPTION      OF EXTENDED        CARE BENEFITS       AND SMI SERVICES

Charges in excess of $413 million in 1991 and $517 million in 1992 were made for SiWI
services provided to Medicare bene$lciam”esreceiving extended care benejiks in !WFS.

�	     These charges represented seven percent of the total charge for medical care for
       beneficiaries receiving extended care services in a SNF (total charges for extended
       care (including SMI) were $5.9 billion in 1991 and $7.6 billion in 1992).

�	     Total charges for extended care (including SMI) were nearly equally divided
       between accommodations (room and board) and ancillary/SMI charges.

�	     Of the ancillary/SMI charges, rehabilitation was the largest cost, with SMI
       providing only a very small part (three percent) of the total charges.

Facilities with less than 50 Medicare cerhfied SNF beds accounted for the majority of
covered admissions and covered days of care.




                                             i
Most SNF stays (82 percent) resulted in the use of SW services; yet, few categories of
services were predominant.

�	     Evaluation services was the only category of SMI service received by a majority
       (68 percent in 1991 and 69 percent in 1992) of SNF residents during their covered
       stay .

c	     Although evaluation services were present in more residents’ stays, the category of
       medical equipment, supplies, prosthetics, and orthotics accounted for the most
       charges ($98 million in 1991 and $112 million in 1992).

�	     Approximately 24 percent of beneficiaries received outpatient services during their
       SNF Shy.

As expected, residents with longer stays were more likely to use more SMI-covered
services.

States’ utilim”on of SMI van”edconsiderably. This vmidion existed in the percentage
of SNF stays having SLW services, the average bed &y cost, and the types of services
and providers.

PROGRAM      VULNERABILITIES

Services covered under the HI extended care benejit may be shifted to the SMI program,
creating added beneficiary liabili~.

The SNFS which shift services from the HI program to the SMI program may avoid
Medicare limits on SNF payment and, if the shifted services are covered by SMI, increase
the costs to residents and, ultimately, the tax payer. Cost shifting may occur for two
distinct types of services: 1) routine services (which include the nursing care, bed and
board, and certain other labor and supply costs) and 2) certain ancillary services.
Examples include:

�	     As much as $44 million in 1991 and $55 million in 1992 were charged to SMI for
       rehabilitation therapy. Rather than the SNF providing the ancillary services and
       charging them to the HI program, third party providers billed the therapy through
       the SMI program.

c	     Over $98 million in 1991 and over $112 million in 1992 were charged to SMI for
       supplies and equipment, which is included as either routine or ancillary costs in the
       HI program when billed by the SNF. Enteral and parenteral nutrition represent the
       bulk of shifted costs, at over half of the total ($60 million in both 1991 and 1992).

One reason SNFS are able to shift some types of ancillary costs to the SMI program is
because section 1861(h) of the Social Security Act permits each facility to determine
whether certain services are provided as extended care services. Consequently, the


                                             ii
extended care facility is able to determine for itself whether those services are covered by
either the HI program or the SMI program.

The different financial costs of an item, depending on whether the item is paid as a
cost to the SNF or as a SMI service paid using a fee schedule, result in higher costs
to Medicare if the service is not provided under the least expensive method.

The difference between what it costs the SNF to purchase goods or services, which
becomes the Medicare cost paid to the SNF, and what is paid by Medicare according to
SMI fee schedules may be radically different. Does cost reimbursement to the SNF
produce the lowest cost? (The Medicare SNF payment is based upon actual costs of
service, irrespective of whether the SNF service is covered by HI or SMI.) Or is the
fee-based service of the supplier lower? (For example, the SNF cost for purchasing
tape to secure surgical dressings or dietary nutrients may be less than the fee allowed
suppliers who provide surgical dressings or nutrients).

SNFS acting as suppliers of drugs, biological,      appliances, or equipment may
conti”bute to SMI billing motivated by profit.

Medicare’s present rules and practices permit the SNF to be both a cost-based provider
of HI and SMI services and a charge-based supplier of SMI services. This flexibility
allows the SNF to assess the financial impact of cost versus charge payments, and to
choose using whichever avenue is most advantageous. Additionally, a SNF acting as a
supplier of SMI to its residents can be a lucrative profit-generating business, with
questions as to conflicting interests (nursing home’s profit versus the cost benefit to
residents and tax payers).

Some suppliers provide excessive volumes of supplies to nursing homes or
misrepresent the supply to obtiu”nreimbursement for a noncovered item or maximize
reimbumement.

A review conducted by Arkansas Blue Cross and Blue Shield found that some suppliers
were representing the combination of certain supplies (skin barrier, lubricant, gauze
pads, etc.) as oral care kits or ostomy care kits. However, when the supplies were
later delivered to the nursing home, they were not kits designated for any specific
beneficiary; rather, the supplies were provided in bulk quantities. Some nursing homes
stated they are turning away suppliers because their supply rooms are already
overstocked with unused supplies from previous shipments.

Considerable State-to-State variation in average SMI costs raises questions about the
impact of State Medicaid practices on SMI costs and inequities in beneficiary out-of-
pocket costs for care.

The 1992 bed day cost for the SMI ranged from as little as $3 in one State to as high
as $35 in another. While we cannot explain this variation with certainty, it is suspected
the variances stem, in part, from Medicaid payment policies related to how the


                                             .. .
                                             111
Medicaid nursing facility rate is set. Another factor may be the extent to which the
State Medicaid policy forcefully encourages nursing facilities to bill Medicare whenever
possible.

An inequity exists in States (or nursing homes) which shift services to the SMI
program. Ttisinequi@ istramlated into added beneficia~ out-of-pocket costs due to
coinsurance and deductibles which might not be required in States (or nursing homes)
providing a service under the extended care benefit.

The apparent lack of physician involvement during many beneficiaries’ stays raises
questions about the adequacy or quality of pti”ent care.

Nearly one-third (32percentin 1991 and31 percent in1992) ofresidents had no
allowed charges for a primary physician encounter (physician visit, evaluation, or
consultation) during their stay in the SNF. The primary care physician is critical to the
overall management of the resident’s health and plays a pivotal role as gatekeeper,
determining and/or providing necessary medical care, equipment, and supplies.

Frm”lextended care residents are pati”cularly susceptible to abusive or unscrupulous
providers.

The physical and cognitive limits of some extended care residents provide a unique
opportunity for fraud, abuse, and waste. Unless protected by concerned family or
friends, or by the policy and practices of the SNF, the extended care resident may be
subjected to some of the most egregious practices found in health care, with decisions
on care governed by greed, rather than medical need.

CONCLUSION

Significant payments are being made for extended care resident services through the HI
and SMI programs. Consequently, monitoring services provided under these benefits
and addressing vulnerabilities raised in this report are important, given Medicare’s
potential exposure to abusive practices.

This review of SNF utilization of SMI services suggests further work is needed in at
least the following areas:

       1.	    The apparent wide State-to-State variation in extended care bed day costs
              for particular SMI services.

       2.	    The appropriateness of SMI payment for the millions of dollars paid each
              year for services normally included in the extended care benefit, and the
              resulting inequities in resident cost liability.

       3.	     The adequacy of a resident’s knowledge about the cost and frequency of
               services billed outside of the nursing facility’s bill.


                                             iv
       4.	    The policies and practices of various State Medicaid programs, as they
              contribute to program vulnerabilities in the Medicare extended care
              benefit.

       5.	    The monitoring of extended care utilization over time, and review of
              services experiencing rapid growth without any known reason (e.g.,
              coverage change).

       6.     The lack of physician involvement in some SNF stays.

COMMENTS

The HCFA commented on this report. They agreed with our conclusions and
suggested a statutory “rebundling” provision for SNFS (similar to that for hospitals) is
needed. We agree that this is the direction to take. To assess the impact of
rebundling, our office is presently conducting a more exhaustive analysis of services
included in the extended care benefit and also covered by the Supplemental Medical
Insurance program.

We thank HCFA for their comments and look forward to working closely to improve
services firnished under the extended care benefit. The full text of their comments is
provided in Appendix E.




                                              v
                      TABLE                OF CONTENTS

EXECUTIVE      SUMMARY


INTRODUCTION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


DESCRII?I’ION     OF EXTENDED            CARE BENEFITS                               AND SMI SERVICES                                        . . . , . 8


PROGRAM       VULNERABILITIES              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
                                              18

CONCLUSIONS          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . 25

ENDNOTES       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . 27

APPENDICES


A: Procedure Code Classification.          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 A-1

B:   1992 SMIServices by Category.          . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 . B-1

c:   State Bed Day Costs and Utilization        . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .C-l

D: Provider Specialties by State...          . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 D-1

E: HCFA Comments           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 .E-l

GLOSSARY       . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   ..(%SSLW-     1
                           INTRODUCTION

PURPOSE

Thepurpose ofthis study was l)todescribe the Medicare Supplemental Medical
Insurance (SMI) services provided to residents in Skilled Nursing Facilities (SNFS) and
2)toidenti@ mddiscuss hownorpotential        program wlnerabilities, as well as issues
involving SNF residents requiring further review.

BACKGROUND

Medicare Program

Medicare is a Federal health insurance program, authorized by Title XVIII of the
Social Security Act, that covers most people 65 years or older, people with end-stage
reml disease, and some disabled people. The program consists of two distinct
insurance programs. Hospital Insurance (HI) Benefits for the Aged and Disabled
(Part A) covers services furnished by hospitals, home health agencies (HHA), hospices,
and skilled nursing facilities. Supplementary Medical Insurance for the Aged and
Disabled (Part B) covers a wide range of medical services and supplies, including
physician services, outpatient hospital services, and home health services (not covered
under Part A), as well as diagnostic laboratory tests, X-rays, ambulance services, and
the purchase and rental of durable medical equipment (DME).

In 1992, Medicare provided basic health insurance coverage for more than 34 million
people at a cost of approximately $129 billion. The SMI payments have recently been
growing faster than HI payments and accounted for about $49 billion of the Medicare
expenditures for 1992.1

The Health Care Financing Administration (HCFA), within the Department of Health
and Human Services (DHHS), administers Medicare and contracts with private
insurance companies (e.g., Blue Cross or Blue Shield plans) to process and pay HI
and/or SMI claims. Contractors, called intermediaries, process claims from institutions
such as hospitals and nursing homes; other contractors, called carriers, process claims
from noninstitutional providers, such as physicians and suppliers. The HCFA provides
direction to contractors on payment matters and is, ultimately, responsible for assuring
a contractor’s adherence to applicable program policies and procedures.

Extended Care Benefit

While Medicare does not cover expenditures for traditional long-term nursing home
care, benefits are provided for extended care to qualified beneficiaries in a Medicare-
participating SNF. The extended care benefit was designed to reduce the length of stay
in acute care hospitals, and transition beneficiaries to their homes or to custodial care
facilities. In comparison to Medicaid nursing home expenditures, Medicare accounts


                                            1
for only a small percentage of the total nursing home care provided, For example,

Medicare services accounted for 4.7 percent ($2. 5 billion) of all 1990 nursing home

expenditures ($53. 1 billion). Medicaid, in contrast, accounted for over 45”percent

($24.2 billion).2


The HI program does not pay for a SNF stay ii the beneficiary needs skilled nursing or

rehabilitation services only occasionally, such as once or twice a week, or if the patient

does not need to be in a SNF to get the skilled services.3 Additionally, Medicare HI

does not pay for the stay if the beneficiary is in a SNF for only custodial care. Table 1

describes the conditions which must be met before HI of Medicare will pay for

extended care provided a beneficiary in a Medicare-participating SNF.



               Conditions for Medicare Extended Care (SNF) Eligibility

        Pa.h”ent’s           The patient’s condition requires daily skilled nursing or
        Condition            skilled rehabilitation services that, as a practical
                             matter, can only be provided in a SNF.
         Hospital Stay	      The beneficiary was in a hospital at least 3 consecutive
                             days before being admitted to a participating SNF.
        SA?FAdmission        The beneficiary was admitted to a SNF within 30 days
        Deadline             after leaving the hospital.
        Care Related to      The care in the SNF is for a condition that was treated
        Hospitol Stay	       in the hospital or for a condition that arose while the
                             beneficiary was receiving care in the SNF for a
                             condition that was treated in the hospital.
         Covered Days	       Medicare allows a maximum of 100 days per episode4
                             of illness and pays for all covered SNF expenses for
                             the first 20 days. After the 20th day, patients pay part
                             of the SNF care (daily co-insurance).5
        Medical              A medical professioml certifies that the beneficiary
        Professional         needs skilled nursing or skilled rehabilitation services
        Certi?cah”on         on a daily basis.
        Intermediary         The Medicare intermediary does not disapprove the
        Approval             SNF stay.
                                            Table 1

A certified SNF is a facility with the staff and equipment to provide skilled nursing care,
skilled rehabilitation services, and other related services, and that meets the conditions of
Medicare participation specified by regulations.G Skilled nursing care is that care which
can only be performed by or under the supervision of licensed nursing personnel. Skilled
rehabilitation services include physical therapy, occupational therapy, and speech
pathology services performed by or under the supervision of a qualified professional.

The extended care benefit is defined in section 1861(h) of the Social Security Act. In
addition to describing services provided by the extended care benefit, this section indicates



                                              2

thesource of the services. Table 2summarizes the law.


                               Extended Care Covered Services’
                                 (AsDescribed in Section 1861(h))
                                             Section 1861 (h)                        Source

 Nursing Care         “(l) Nursing care provided by or under the supervision of a     SNF
                      registered professional nurse.”
 Room and Board       “(2) Bed and board in connection with the furnishing of         SNF
                      nursing care. ”
 Rehabilit&”on       “(3) Physical, occupational, or speech therapy furnished by     SNF or
 Therapy             the SNF or by others under arrangements with them made          Others
                     by the facility.”
 Medical Social       “(4)   Medical social services”                                 SNF
 Services
 Drugs and            “(5) Such drugs, biological, supplies, appliances, and
 supplies            equipment, furnished for use in the SNF, as are ordinarily      SNF or
                     furnished by such facility for the care and treatment of        Others
                      inpatients.” (emphasis added)
 Medical services    “(6) Medical services of interns and residents-in-trainingof      As
 of interns          a hospital with which the facility has in effect a transfer    Specified
                     agreement...and other diagnostic or therapeutic services          In
                     provided by the hospital.”                                     Agreement
 Other Medical       “(7) Such other services necessary to the health of the
 Services            patients as are generally provided by SNF; excluding,
                     however, any item or service if it would not be included...      SNF
                     if furnished to an inpatient of a hospital.”
                                              m... w- *



The SNF services are divided between routine and ancillary services. Routine services
include room, dietary, nursing services, medical social services, items which are reusable
and expected to be available in a SNF (e.g., wheelchairs), and items which are furnished
routinely to all patients. In contrast, ancillary services include laboratory, radiology,
drugs, therapy, and other items and services for which charges are customarily made in
addition to a routine per diem charge.

Medicare-participating SNFS are paid their costs and receive interim amounts to pay
estimated costs. Actual costs are settled later, with adjustments made if interim payments
were too high or too low. Any costs determined to be in excess of those necessary for the
efficient delivery of needed health services are excluded.

SMI-Covered Services

The SMI program provides coverage for physicians’ and certain other practitioners’
services and a variety of “medical and other health services” (as defined in section



                                                3
1861(s)). Physician services are those provided by doctors of medicine and osteopathy,
doctors of dental medicine and surgery, doctors of optometry, doctors of podiatric
medicine, and chiropractors licensed under State law. The SMI also covers certain
services and supplies provided by suppliers (e.g., ambulances, laboratories, medical
suppliers, portable X-ray suppliers billing independently, voluntary health and charitable
organizations, and pharmacies). In addition, SMI covers services received from certain
practitioners who are not physicians, such as certified registered nurse anesthetists,
physician assistants, nurse midwives, and clinical psychologists.

Physician and supplier services covered by SMI include diagnosis; surgery; therapy;
consultation; home, office, and institutional visits; diagnostic X-ray tests; rental or
purchase of durable medical equipment; surgical dressings, splints, casts, and other
devices used for reduction of fractures and dislocations; and prosthetic devices.

HI and SMI Coverage Overlap

A SMI service is typically provided and billed by practitioners or suppliers. However, the
SNF may provide SMI services or supplies. Thus, the service in question may be covered
as either an inpatient HI service or as a SMI service. If covered as a HI service, the
beneficiary is directly benefited. This is because HI, unlike SMI, does not create an
additional dollar liability due to coinsurance and deductibles. As an illustration of
program coverage, physical therapy provided to the Medicare SNF inpatient is covered as
a HI benefit, if the individual beneficiary is covered under HI. If the therapy is not
covered under HI (beneficiary does not qualify for HI or has exhausted the 100 days of
SNF coverage), it is covered and paid as a SNF SMI service. Although simplified,
figure 1 emphasizes the overlap between the services covered under the extended care
benefit and those covered under the SMI program.

                 Coverage   Overlap Exists Between the HI and SMI Programs
                   Which Program   Pays Depends        on Answers    to Several   Questions

                            HI (Part A) Coverage          SMI (Part B) Coverage




                                           ‘. speech    Thererw j outpatient   services




                                        Ordinarily Furnished by SNF’?
                                   Es   Under Arrangement With SNF? NO
                                        Is Beneficiary Covered by HI?




                                               Figure 1




                                                   4
Program Vulnerabilities

Medicare is the nation’s largest payer of health care services and, with 1992 costs of $128
billion, represents the foutilargest catego~of Federal ex~ndimres. Despite attempts to
constrain costs, Medicare spending and beneficiary out-of-pocket costs have risen at
troubling rates according to the Government Accounting Office (GAO).8 The growth of
these payments increases Medicare’s vulnerability to erroneous and excessive payments
for claims resulting from program weaknesses and provider fraud and abuse.

Program vulnerabilities are circumstances which may lead to excessive costs to the
Medicare program, the Medicare beneficiary, and, ultimately, the tax payer. Both fraud
and abuse are included in our definition of program vulnerabilities.

METHODOLOGY

Sources and Limitations of Data

Data presented in this report (unless otherwise noted) were obtained from a one percent
sample of all Medicare beneficiaries receiving Medicare extended care benefits during
1991 or 1992. After selecting the sample of beneficiaries, all SMI services and HI
payments extended during the covered nursing home stay were extracted from the HCFA
Common Working File (CWF) database. 9 The SMI services processed by both the
carrier and the intermediary were identified.

Data from the sample were projected to the total SNF population.

Cam”er-processed SMZ data reflect the allowed charges. Allowed charges represent what
Medicare considers reasomble for these services. The program pays 80 percent of the
allowed charges, with beneficiaries responsible for coinsurance and deductibles.

Intermediary-processed SMZ data reflect interim charges by providers. This is because
reimbursement is based on the application of reasonable costs, subject to certain limits
which are reported through cost reports. Thus, these charges may not represent the final,
settled cost to the Medicare program.

Intermediary-processed extended care services (SNF) data are based on unpublished draft
data provided by HCFA’S Bureau of Data Management and Strategy who extracted the
data from the CWF. These data reflect charges (unless otherwise noted).

Important Note: In reviewing the data in this report, the reader should recognize that two
types of data are combined. The data combined are for claims processed by carriers and
for claims processed by intermediaries. The data from carriers refers to those charges
which Medicare considers reasomble (allowed charges) and to which coinsurance and
deductibles are applied. In contrast, the data for intermediary claims (SNF and outpatient)
refers to total charges. Total charges (include both covered and noncovered charges) refer



                                           5
to all services for a billing period before reduction for the deductible and coinsurance
amounts and before any adjustments for the cost of services provided.

Total charges for intermediary processed outpatient and extended care (SNF) claims were
used for two reasons. First, total charges were readily available and could be broken out
in sufficient detail (e.g., at least at the revenue center level, and often at the procedure
code level) allowing analysis of discrete types of services (supply, lab, etc.). Second,
there was little difference between total and covered charges for SNF claims. (In 1991
and 1992, the percent difference between total charges and covered charges was less than
three percent).

The 1991 to 1992 percent change calculations made in this report reflect an inflation
adjustment factor (7. 4 percent), which is used to reflect more accurately the true percent
change due to charge variation rather than to medical care inflation. Although we were
aware of other adjustment (inflation) factors such as HCFA’S Medicare Economic Index
(MEI), the Medical component of the Consumer Price Index for all urban consumers, the
U.S. city average (CPI-U) appeared adequate for our use in this report in light of MEI’s
limitations. While MEI is specific to certain Medicare categories of services (such as
physician services, lab tests, etc.), it does not account for all categories of Medicare
services.

The reader should recognize that the CPI is not always a true representation of the
medical care cost changes in Medicare and should be viewed with care. This is because
of various constraints specific to Medicare (e.g., fee schedules, congressionally mandated
reductions or controls on the pricing of certain types of services, etc. ) which do not exist
in the general medical community from which the CPI is derived.

Data Presentation BY Categories

To facilitate the presentation of the types of SMI and HI services provided, we classified
HCFA Common Procedure Coding System (HCPCS) procedure codes and facility revenue
center codes into one of either two HI categories or 20 SMI categories. No procedure or
revenue center code is included in more than one category.” We were limited in the
degree of classification available for HI services because the HCFA data was pre-grouped
into the following categories: accommodations, pharmacy, lab, radiology, supply,
inhalation therapy, rehabilitation, and other. Where possible, we tried to classify
categories in terms of the law’s reference to coverage of the category. Additionally, we
modeled much of the major categorization after a developmental categorization system of
HCPCS procedure codes prepared by HCFA’S Office of Research and Development in
coordination with the Urban Institute.

Appendix A summarizes how HI and SMI services were grouped for purposes of this
review.




                                             6
Discussions of program vulnerabilities are drawn from our review of applicable law and
regulations and analysis of the services depicted in our sample. Additionally, we
reviewed findings from prior OIG reviews and fraud alerts for evidence illustrating
program vulnerabilities. Finally, we conducted a survey of carriers to determine what
types of abuses are occurring with regard to equipment and miscellaneous supplies.

Our review was conducted in accordance with the Quali~      Standardsfor Inspections issued
by the President’s Council on Integrity and Efficiency.


PREFACE

This report is intended to give the reader a sense of the utilization of the SNF extended
care benefit with special focus on SMZ services. Also, we hope to point out areas of
vulnerability and to set a framework for potential future work by this office, and to
present a baseline from which to monitor utilization in subsequent years.

Our discussion begins with a section describing 1991 and 1992 extended care and SMI
utilization statistics, and concludes with a general discussion of the known or potential
vulnerabilities suggested by the data.




                      A glossary of terms has been included in the back
                       for reference reviewing this and@ture reports.




                                            7
    DESCRIPTION                      OF EXTENDED   CARE
       BENEFITS                     AND SMI SERVICES

Charges in excess of $413 million in 1991 and $517 million in 1992 were made for SiWI
services provided to Medicare benefician”es receiving extended care benefits in SNFS.

The SMI program provides a considerable
financial supplement to the services provided
under the extended care benefit in the SNF.           ~
Although SMI charges represented only seven
                                                          Billions
percent of the total (HI and SMI) cost of care for             8-              $7.6
SNF residents, the costs reflect the important part           7“
SMI plays in contributing to resident care. (See              6-
Figure 2.)                                                    5.
                                                              4-
SMI’S contribution when compared only with HI                 3“
                                                                                      I SW is
ancillary charges (total extended care cost less              2-

                                                                               A-
                                                                                       7% percent
                                                              1.                             of total
charges for room and board) represents 13 percent
                                                              *       ,991
of the charges.
                                                      I                        1992
                                                                     u HI Charges
Overall, SMI and HI charges for SNF residents               I SMI Charges
increased approximately 19 percent from 1991 to
1992 (after adjusting for medical inflation using                Figure 2
the overall medical care inflation factor from the
Consumer Price Indexl”). Individually, SMI and HI charges increased 16 and 19
percent, respectively, from 1991 to 1992.

The SNF bed dhy cost, rather than total charges, more accurately reflects the cost of
extended care.

While it is clear that program charges for residents of nursing homes increased
significantly from 1991 to 1992, a more accurate representation of the cost of care
received by individual SNF residents involves calculating the average Medicare program
                                                                                 .-
charges per day in the SNF. We call this the bed day c&t. The bid day cost calculations
take into account increases in covered days from one year to another.

On average, it cost $267 per bed day in 1991 and $302 in 1992 for care received while a
SNF resident. This represents a per bed day cost increase from 1991 to 1992 in constant
dollars of approximately five percent. The SMI program’s part of this daily cost is $20.
Additionally, utilization of SMI services was highly variable, with many residents having
no SMI charges, while others had high charges. In both 1991 and 1992, 18 percent of
SNF stays had no SMI services, At the other extreme, the highest daily average charge
was $832 per day for a resident in 1991 and over !$1,767 per day for a resident in 1992.



                                              8

 These high daily costs were primarily the result of extensive use of ambulance services
 and rehabilitation therapy.

Facilities with less than 50 Medicare certified SNF beds accounted for the majority of
covered admissions and covered days of care.

As indicated by figure 3, facilities of less than 50 Medicare certified SNF beds accounted
for 62.3 percent of all facilities with Medicare certified SNF beds in 1992. Those
facilities with 50-99 beds and 100 or more SNF beds represented 21.9 percent and 15.8
percent, respectively. 11


                            Most 1992 SNF Admissions Were
                              to Facilities With Less Than
                               50 Medicare Certified Beds
                     n




                                                          *covered   days in th ousamis
      Source: HCFAunpublisheddata

                                         —.        .
                                         Figures


Most SNFS (87 percent) were not hospital-based. Although hospital-based SNFS
represented only 13 percent of the total number of SNFS, they represented 26 percent of
the total covered admissions (222,818) during 1992.

There were 864,991 total covered SNF admissions, with facilities having less than 50 SNF
beds accounting for 65.3 percent. These facilities also accounted for the majority of
covered days of care (60.7 percent).

On average, resident stays in facilities with a small number of SNF certified beds were for
shorter durations than stays in facilities with more SNF beds. Stays in facilities with 200
plus SNF beds were substantially longer than stays in facilities with few SNF beds.



                                              9

Total charges forextended care and SMIwere nearly equally divided between
accommodations (room and board) and ancillary charges (including SLWI).

At $3.9 billion, SNF ancillary charges combiwwl with SMI charges accounted for slightly
over half of the medical care for SNF residents receiving extended care benefits in 1992.
The remaining component of medical care was for room and board ($3.7 billion). (See
Figure 4.)    -    -

                   1992 Total   HI and SMI Charges for SNF Care Were Split Evenly
                             Between Accommodations and Ancillary Services

                                                                                         ,.. .
                                                                            .......
                                                       ,.. ,, . . . . . .
                                    . . . . . . ...”




                            (lb 1                                                                ‘lid
                                                                                                 70%      -s       (fi4%)
         Accommodations                                 HI SNF ANCILLARY
             SNF             49%           “.                CHARGES (87%)                                Pharmacy/Drugs
           ROOM and                                             and                                            (lR9%)
                                                                                                 50%
            BOARD                                          SMI CHARGES (13%)
         ($3.7   bllllon)                                      ($3.9    billion)

                                                                                                 30%
                                     ..                                                                   Rehabilitation    Therapy
                                            ....                                                 20%            (4&3%)
                                                       ....
                                                              “’. . . . .
                                                                            ...                  w%
                        TOTAL H1/SMl CHARGES                                      ....
                         FOR EXTENDED CARE                                               .....
                                                                                                 ..
                                                                                                      0
     I
                                                                  Figure 4


In bed day cost terms, 1992 room and board charges averaged approximately $149 per
day. Ancillary and SMI charges accounted for the remaining $153 of the total medical
care average bed day charge of $302.




                                                                        10

Rehabilit~”on services was the largest extended care ancillary cost with SW providing
only a very small part of the total charges.

As shown in the previous figure and in the figure below, rehabilitation was the largest
single ancillary cost, representing 46 percent of ancillary charges. However, the SMI, in
comparison to HI, played a relatively small role in financing rehabilitation services. The
SMI charges were only $44 million in 1991 and $55 million in 1992 compared to HI
charges of $1.18 billion in 1991 and $1.75 billion in 1992. In bed day cost terms,
rehabilitation charges were approximately $72 per day on average in 1992. The
HI-covered rehabilitation accounted for most of this daily average, with SMI comprising
only $2.16 of this total.

Pharmacy and supply were the next largest components of the total bed day cost at $29
and $18, respectively. The SMI did contribute significantly to the service categories of
supplies, lab, and radiology and also the sole source of funding for evaluation, ambulance
service, and medical procedures as defined for this report. (See Figure 5 for an overview
of SMI and HI charges.)


                                                           1992 Total HI and SMI Charges
       Charges                                                  (excluding SNF Room and Board)
      InMllllona


      ~~         ‘~
        950.
        9oo-                                                   .        .            ..
        850.
        800- ---                       . . ..$737 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
        750-
        7oo- ---                   --           “       -------------
        650-                                                                                        U     Hi
           6oo- ---                ---                  -------------
           550-                                                                                     1      SMI
           5oo-    -                                             _          . . . . . . . . . ..Di.ii..
                                                               $445
           450
           4oo-    ---             ---                  ---’                ......................................................
           350
           3oo-    ---                 -----              .. .              .................. .................................... .........
           250.                                                                   $240
           2oo-    ----                  ..-.             .. .                     —       . . ..$190 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
           150.                                                                                                       ~o            $116
           100-                                         .....                .               .                .                                                . . . ..$40        ..........
            50                                                                                                                                                                         $36
             0                                  9
                              c                   *                                  4             #                   g              &                                                        0
                          &                     $’J
                                                                   \+
                                                                     #
                                                                *QQ &..                            ~o    ,0                                        *$                & #
                                                                                                                                                                    ,0 \  ,**o
                     *<*   .$0                                                              *$+$
                                                               *                           $ & Q!*Q if                                           &.$               ?!$? +++
                   *2                                              W3                                 4’                                        *
                  *0     ~$                                                               4’~Q *$’                                                                  Q
                                  Q­

             ~~
                                                       HI and SMI Services                                                                             SMI Only              Services

                                                                                                 -.
                                                                                                 lugure           5




                                                                                                       11

Most SNF stays resulted in the use of SMI services; yet, few categories of services were
predominant.

As indicated in figure 6, the percentage                       of resident stays in a SNF involving SMI services
remained unchanged between 1991 and                            1992. During this two year period, 82 percent of
the SNF stays had some SMI services.                           However, within specific categories of services,
only evaluation services were used in a                        majority of SNF stays.


                              Residents Typically Receive SMI Service& However, Only
                                        a Few SMI Categories Are Common
              MAJOR SMI CLASSIFICATION
                     CATEGORY




                                                                                                                68%      :     :
                              Evmatksr
                                         I                                                                      :6S%     ;     ;




        -                                        :~::;;;;\:
         ~          Mmr+whlrknnl ml
              gll~+g%gg                              [         1         I        I         I          1        I        I         -
                                             O      10        20        30       40    50          60          70        80   90       100%
             Pod!#t@?4?lot     Cirre
                                                              Percent        of SNF Stays       With       SMI Charges
                ~ -&Y
               &~
             vhAnr#nd~Sm@la

                                                                   -.
                                                                   Figure 6


See Appendix B for a complete listing of the 1992 charges, average bed day cost, and the
percentage of SNF stays with various SMI services by categorical grouping (as defined in
the methodology and projected from our one-percent sample).

During 1991 and 1992, carriers processed approximately two-thirds (62.9 percent) of the
charges for SMI services to SNF residents. Conversely, intermediaries processed
outpatient claims for the remaining one third of charges. While 80 percent of
beneficiaries had SMI processed by a carrier, only 24 percent had outpatient SMI charges
processed by the intermediary.


                                                                         12
  Many @pes of SW services were provided to the SNF population during 1992.

  In 1992, the category of medical equipment, supplies, prosthetics, and orthotics accounted
  for the most charges ($1 12 million) of any categorical grouping. The top three categories
  of service (adding evaluation and lab services) accounted for over 50 percent of the total
  SMI charges provided to extended care residents. (See Figure 7.)


                                    1992 SMI Charges by Category of Service


      MAJOR SMI CLASSIFICATION
             CATEGORY


      Msdcal E-t        m,            ::::;:::                                                          ::::
       Pro$thatic$ and ()~~
                                      ,,,                   ..,,                             ,..                        ,$~


                                                                                                                $i7
           ~    andOUIarTests
                                                                                   m;


           R*matica    ThWSpy
                                                                        $5s



        ‘“”E””y~’+




                                    1        I    1     ,           4    r     ,         1              -
                              ‘(l   10      20   30    40          50   60    70        80         90          100    11m20

                                                             SMI CHARGES IN MILLIONS


                                                      Figure 7

Although not included in our definition of a SMI SNF service, ambulance transport of a
beneficiary to a SNF on the day of admission was used by 36 percent of beneficiaries.
Allowed charges for this service exceeded $45 million in 1991 and $59 million in 1992.



                                                        13

As expected, restients with longer stays were more likely tousemore                   SMI-covered
services.

While 82percent ofresidents had SMI charges, thepercentage of stays with SMI services
differed depending onthelength of the SNF stay. Astable3 shows, short stays (l-8
days) were less l~elyto involve SMIsewices than stiysof a longer duration, regardless
of the category of service received.




                                                                                                 =1
                                                                                                 NT OF
                                                                                                 NG 1992

                                                                                                 81-100




 Ma ior   and MinorMedicalProcedures         .3%          7.6%     15.070    24.3%      28.9%
 Ambulance Services
                         .o%          4.9%     8.89!0    13.8%      16.1%
 Local Codes
                                . 70         2.8%     5.67 0    5.97 0     9.17 0
 Miscellaneous   Out Qatient Se rvices
     0.87 0         . 70    4.7%      7.6%       8.9%
 Mental Health Se rvices
                   0.6%          1.3%      .   70   6.7%       5.2 %


 Drum and Biolog icals                      0.7%          1.4%
       .. .
 Rehabd@mo n The ranv                       1.07 0         .o%
 Other                                    I 0.8q o    ! 1.1 %
 Endoscom                                    . qo         1.07 0
          .
 Anesthesia                                  . YO         0.87 0
 Onto 1ow                                 I 0.57 0    I   1.37 0
           Serv ices                         . %          1.1%
 Remiratorv     TheraDv                     0.07 0        0.1%
 OVERALL (my service)                       58.9%         84.4%
                                             Table 3

In 1992, 45 percent of all SNF clients residing for eight or less days had an evaluation.
Utilization of an evaluation service continued to increase until most clients (93.6 percent)
residing for periods of 81-100 days had an evaluation. The relationship of days of care to
the potential for a SMI evaluation service was relatively constant between 1991 and 1992.

Compared to 1991, residents in 1992 with SNF stays beyond 40 days had an increased
likelihood for mental health services. In 1991, clients had only a .2 percent chance of
receiving mental health services during SNF stays of less than eight days. However, this
increased to a four percent likelihood of such services during stays of more than 81 days.
Interestingly, mental health services, in contrast to evaluation services,



                                                 14
increased disproportionately between                   ResidentsWith Longer Stays Were More Likeiy

1991 and 1992. As indicated in figure              In 1992 To Receive Mental Health Services Than In 1991

8, 1992 residents residing for 1-8 days                % of Stays With
had less than a one percent opportunity                 Mental Haalth
                                                           Services
of having such services. However,                           10%
clients residing for longer than 81 days                           -— 1991
                                                              8
had a ten percent chance of receiving                            — 1992
                                                              8 El
mental health services.
                                                              4’
Our office has already begun an                               2’
evaluation of mental health services
                                                              01-8 6-20	 21-40 41-60 61-60 81-100
which will help to explain this rise in                                      Length of Stay
utilization from 1991 to 1992.
                                                                             Figure 8
States’ utditi”on of SMI varied
considerably.

�	     There was variation from State-to-State in the percentage of SNF stays involving
       SMI services.

As shown in figure 9, among the 15 largest States (as defined by the number of SNF
covered days), the percentage of stays with SMI varied from a high of 94 percent in
Connecticut to a low of 71 percent in Minnesota. Little variation existed from 1991 to
1992 except for Wisconsin, which decreased considerably.


                                SMI Utilization Varies By State
         Stays With SMI    rf!lhowoan? Stites w“th more than 50@ Covered days)
            100%1




                                              -.
                                              qgure     Y




                                                  15
While we are unable to explain the utilization differences between States, it seems likely
that Medicaid practices within the State may help explain these differences. However,
further study is needed to validate any causal conclusions.

�      Average SMI bed day costs varied significantly between States.

In 1992, bed day costs for the 15 largest States varied substantially from a low of $10 per
bed day in Minnesota to a high of $33 in Pennsylvania. (See Figure 10 and Appendix C).




             .
                                                    SMI Bed Day Costs Vary By State
                                              (Shownare States with more than 5000 Covered days)
       Average
     Bed Day Cost
       $50



                         ,-.
              1



              /""""""""""""""""""""`""""
         4~ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

              4       $33
                                                                                                              s-:­
                                                                                                              ,      .
                                                                                                                     ‘, o
                                                                                                                         *B.
                                                                                                                               -   ...   .




         30       -       -----




             b
                                $26


         20               ...




         10       .       ~~~

                          ...         .




                                                                                          STATES

                                                                                      Figure           10

Again, we are unable to explain the variance between States. It is likely that Medicaid
practices within the State will explain some of these utilization differences; however,
fhrther study is needed to validate this conclusion.




                                                                                               16
�      State-to-State variation in the types of SMI service providers was even greater.

Asshown in figure 11, most 1992 SMIcharges were from outpatient departments,
physicians, and suppliers. The same overall ratios existed in 1991. However, based on
the specialty coded on the claim form, our data suggest
                                                  --    wide variations in the types of
SMI providers between States.

                 I   In 1992, Most   Charges  Were For Services Provided BY
                       Outpatient    Depa~tments, Physicians, and Suppliers -

                                        OUTPATIENT
                                      SERVICES (37%)




                                                                          X*Y (28%)
                                                                          F’&r&~ (w%)
                      SUPPLIER
                        (20%)                                         6
                                                            OTHER {14%)   m--&W
                                                                          w   (ix)
                                                                          mwEuKws

                                                            ENDENT LAB (6%)
                                                                                     @x)



                                 PHYSICliN       AMBULANCE (7%)
                                   (16%)

                                                Figure 11

Charges often differ markedly from the overall ratio depicted in figure 11. For example,
the percentage of 1992 SNF charges for services provided by suppliers was over 45
percent in Kentucky and Arkansas, while the percentage was less than five percent in
Colorado and Mississippi. There were similar wide State variations for all provider types
including outpatient services. For example, the percentage of charges provided by
ambulance companies ranged from over 15 percent in Connecticut and South Carolina to
less than 5 percent in Michigan and Mississippi. (Appendix D provides a listing of State
variations in provider types.)

By far, the most extreme variation in charges occurred in outpatient services. In
Mississippi, over 70 percent of the charges were from outpatient claims, while in Maine
there were no outpatient charges represented in our sample.

As discussed previously, we cannot explain these variations with certainty without further
review, but we suspect Medicaid practices and other factors (income, availability of health
services, practice patterns, etc. ) influence nursing home use of SMI by residents.




                                                       17
            PROGRAM                  VULNERABILITIES

Services covered under the HI extended care .“’ene@may be shifted to the SMI program,
creatz”ngadded beneficiary liability.

The SNFS which shift services from the HI program to the SMI program may avoid
Medicare limits on SNF payment and, if the shifted services are covered by SMI, increase
the costs to residents and, ultimately, the tax payer. Cost shifting may occur for two
distinct types of services: 1) routine services (which include the nursing care, bed and
board, and certain other labor and supply costs) and 2) certain ancillary services.

Each year HCFA publishes regulations which limit the Medicare payment for routine
services. (For example, the Medicare daily limit for a free standing SNF’S care of a
beneficiary in Dallas is $96.97 per day for the cost reporting year beginning January
1993.) The SNF incurs a loss for costs over the limit, as neither the Medicare program
nor the Medicare beneficiary pay for the excess amounts. Thus, SNFS will directly
benefit, dollar for dollar, to the extent amounts over the limit are reduced by shifting
these costs for routine services elsewhere.

By shifting costs above the routine cost limit, SNFS increase their profitability, while the
tax payer and SNF resident assume the cost of the amount Medicare allowed for the SMI
services billed.

Theram Services

As much as $44 million in 1991 and $55 million in 1992 were charged to SMI for
rehabilitation therapy. Rather than the SNF providing the ancillary services and charging
them to the HI program, third party providers billed the therapy as SMI services.

Sw.mlies and Euuir)ment

Over $98 million in 1991 and over $112 million in 1992 were allowed by SMI for
supplies and equipment (this represents the SMI category we defiied as medical
equipment, supplies, prosthetics, and orthotics), which is included as either routine or
ancillary costs in the HI program when billed by the SNF.

Enteral and parenteral nutrition, which totaled $60 million in both 1991 and 1992,
represented over half the shifted costs. Other components of the cost shified items (in
millions) were:
                                                           1991 1992
        Durable medical equipment                           $8     $11
        Braces, trusses, and artificial limbs               $7     $12
        Casts, splints, and fracture reduction devices      $2      $3
        Surgical dressings                                  $7      $6
        Miscellaneous prosthetics and supplies             $14     $20


                                              18
Vulnerability in the definition of extended care services

One reason SNFS are able to shift costs to the SMI program is because section 1861(h) of
the Social Security Act permits each facilitv to determine whether certain services are
provided as extended care services. Consequently, the extended care facility is able to
determine for itself whether those services are covered by either the HI program or the
SMI program. The law states that a facility must provide:

       “(5) such drugs, biological,   supplies, appliances, and equipment, furnished for
       use in the skilled nursing facility, as are ordinarily furnished by such
       facility... ” (emphasisadded)

An example of the impact of this citation is that each SNF, as often as it wishes, is
allowed to decide to provide catheters as a SNF service one day and on the next to
provide catheters through outside suppliers, who then bill Medicare and the resident for
the services.

Beneficiary Liabilitv

Charges to Medicare for the routine and ancillary services noted above (therapy, nutrition,
and medical supplies and equipment) illustrate the impact of services provided outside of
the SNF payment. Since beneficiaries are liable for coinsurance and deductibles for SMI
services, the cost to the beneficiary during 1991 and 1992 was between $62 million and
$99 million (the upper bound would be if all residents incurred the $100 deductible for
these services). 12 Had each SNF provided these services (itself or under arrangement),
none of the residents would have been liable for coinsurance or deductibles.

l%e different financiul costs of an item, depending on whether the item is paid as a cost
to the SNF or as a SMI service paid using a fee schedule, result in higher costs to
Medicare if the service is not provided under the least expensive method.

The difference between what it costs the SNF to purchase goods or services, which
becomes the Medicare cost paid to the SNF, and what is paid by Medicare according to
SMI fee schedules may be radically different. Does cost reimbursement to the SNF
produce the lowest cost? (The Medicare SNF payment is based upon actual costs of
service, irrespective of whether the SNF service is covered by HI or SMI.) Or is the fee-
based service of the supplier lower? (For example, the SNF cost for purchasing tape to
secure surgical dressings or dietary nutrients may be less than the fee allowed suppliers
who provide surgical dressings or nutrients.)

SNFS acting as suppliers of drugs, biolo~”cals, appliances, or equipment may contn”bute
to SMI billing motivated by profit.

Medicare’s present rules and practices permit the SNF to be both a cost-based provider of
HI and SMI services and a charge-based supplier of SMI services. This flexibility allows
the SNF to assess the financial impact of cost versus charge payments and to choose


                                              19
whichever avenue is most advantageous. Additionally, a SNF acting as a supplier of SMI
to its residents can be a lucrative profit-generating business, raising questions about
potential conflicts of interest (nursing home’s profit versus the cost benefit to residents and
tax payers).




Considerable State-to-Statevariationin average SMI charges raises questions about the
impact of State Medicaid practices on SMI costs and inequities in beneficiary out-of-
pocket costsfor care.

The 1992 bed day cost for the SMI ranges              Average Bed Day Cost for 1992 SMI
from as little as $3 in one State to as high        Varies Considerably From State to State.
as $35 in another. (See Appendix C).
                                                       Average
                                                     Bed Day Cost
Figure 12 emphasizes the wide variation
of State bed day costs for SMI, with about             $30,
a third of the States averaging a bed day                     --J4         [Averege:J
cost above $20 and the rest below.
                                                     $20-29                     14

While we cannot explain this variation
with certainty, we suspect the variances             $10-19                                  24

stem, in part, from Medicaid payment
policies related to how the Medicaid                  $0-9                 10
nursing facility rate is set. Another factor
may be the extent to which the State                                                         1
                                                              0      5    10    15      20   25
Medicaid policy forcefully encourages
                                                                     NUMBER OF STATES
nursing facilities to bill Medicare
whenever possible.                                                       Figure 12

The bed day cost variance could also come from the different medical care needs of the
State’s population, limitations on our data because of small sample sizes in some States,



                                               20
and other factors (e.g., personal income, the supply of health care resources, and the
concentration of hospital services in urban areas).

An inequity exists in States (or nursing homes) which shift services to the SMI program.
This inequity is translated into added beneficiary costs due to coinsurance and deductibles
which might not be required in States (or nursing homes) providing the services under the
extended care benefit.

Some suppliers mayprovide excessive volumes of supplies to nursing homes.

Another area of potential abuse involves excessive volumes of supplies. An example
found in the nursing home population is the oversupply of convenience/hygiene supplies.
A review conducted by Arkansas Blue Cross and Blue Shield found that some suppliers
were representing the combination of certain supplies (skin barrier, lubricant, gauze pads,
etc.) as oral care kits or ostomy care kits. However, when the supplies were later
delivered to the nursing home, they were not kits designated for any specific beneficiary;
rather, the supplies were provided in bulk quantities. Some nursing homes stated they are
turning away suppliers because their supply rooms are already overstocked with unused
supplies from previous shipments. Although the prevalence of the oversupply of routine
medical supplies by suppliers has not yet been studied, this anecdotal example and the
following statistics suggest the need to do so.

The cost of routine medical supplies charged to the SMI program for SNF residents
exceeded $10 million in 1991 and $15 million in 1992. This represents a significant
increase (over 42 percent after adjusting for medical cost inflation) from 1991 to 1992.

Some suppliers misrepresent supplies in order to gain reimbursement from Medicare.

Two areas where suppliers have been inappropriately reimbursed involve
misrepresentation of a noncovered item as a covered item and misrepresentation of the
place where the service is provided.

0      Misrepresenting items of supply.

Claims for orthotic body jackets represent one example of suppliers misrepresenting an
item to gain Medicare reimbursement for noncovered items. Specifically, approximately
95 percent of the claims for orthotic body jackets in 1991 were for non-legitimate devices
and were inappropriately allowed.

This finding resulted from our study of HCPCS code LO430 and is presented in a report
entitled “Medicare Payments for Orthotic Body Jackets. ”l3 Code LO430 represents an
orthotic device (called a body jacket) commonly used to treat injuries to the spine (e.g.,
vertebra fractures and compressions) and to facilitate healing following a surgical
procedure on the spine or related tissue. The study was initiated in response to an
allegation received by the OIG from a company which provides Medicare billing services
to nursing homes. The allegation stated that DME suppliers were billing Medicare


                                             21
approximately $1,200 per device for devices consisting of “nothing more than a $50 piece
of foam rubber. ”

After reviewing a sample of claims for body jackets, it was determined that 95 percent of
the devices claimed under code L0430 did not meet either the construction requirements
or the medical purpose of a Medicare-covered body jacket. In many cases, the devices
billed were provided primarily for the purpose of keeping patients upright in a wheelchair.
The significance of the finding suggests that more than $7 million in 1991 and, perhaps,
as much as $13.7 million in 1992 were inappropriately paid for non-legitimate devices
billed as L0430.

Although the study did not focus solely on body jackets received by SNF residents, the
findings are equally pertinent to the SNF population. The billing of L0430 for SNF
residents amounted to $129,668 in 1991 and $384,795 in 1992. Assuming 95 percent
were for non-legitimate devices, approximately half a million dollars were incorrectly paid
for SNF residents ($123,185 irr 1991 and $365,555 in 1992). Significantly, claims for the
non-legitimate devices are increasing dramatically by triple digit rates (190 percent from
1991 to 1992 after adjusting for medical cost inflation).

�      Misrepresenting the place of service.

Durable medical equipment (DME) is a noncovered item for beneficiaries, unless the
DME is provided in the beneficiary’s residence. A SNF, like a hospital, is not considered
a residence. Based on data from this database and presented in a separate report,
“Payment for Durable Medical Equipment Billed During Skilled Nursing Facility Stays, ”
the combined Medicare and resident cost for DME was approximately $10 million in 1992
and over $8 million in 1991.14 Significantly, 99 percent of the 1991 DME claims
incorrectly showed (intentionally or unintentionally) the resident’s location when the item
was provided. Suppliers stated the place of service was the ‘home’ or ‘other’; however,
at the time of the service, the beneficiary was actually residing in a WWF. Had the
supplier indicated that the beneficiary resided in a SNF, the carrier would have known to
disallow the claim.




                                               22

       In a 1993 survey, we asked carriers to list their concerns about possible abuses in
       utilization and payment for durable medical equipment and supplies in nursing homes.
       Some of these concerns reflect SUSpeCted m knc)wm almse in areas discussed previously in
       this report. Others reflect concerns about false billing, improper handling of certificates
       of medical necessity, and financial arrangements.




       We note that some of the problems listed are being, or have been addressed by the new
       Durable Medical Equipment Regional Carriers (DMERCS)15. Carriers were not asked to
       provide details on the source or extent of their reports of possible fraud and abuse or
       whether they had referred any cases to the Office of Inspector General.

                                      .




                                                    23

s“:

The apparent lack of physician involvement during many beneficiaries’ stays raises
questions about the adequacy or quality of patient care.

Nearly one-third (32percentin 1991 and31percent in1992) ofresidents had no allowed
charges for a primary physician encounter (physician visit, evaluation, or consultation)
during their stay in the SNF. The primary care physician is critical to the overall
management of the resident’s health and plays a pivotal role as gatekeeper, determining
and/or providing necessary medical care, equipment and supplies. The absence of these
physician services for many beneficiaries raises quality of care concerns. Additionally,
the absence of physician involvement may expose the resident to unscrupulous schemes
providing non-covered and unneeded services. An example of this exposure is illustrated
by a recent investigation where electrocardiogram (EKG) readings were performed
directly by the SNF’S staff with the results transmitted over phone lines for an
interpretation. However, there was no evidence of a physician examination of the resident
to initiate the testing and no indication of cardiac problems requiring testing.

Frail extended care residents are pati”cularly susceptible to abusive or unscrupulous
providers.

The physical and cognitive limits of some extended care residents provide a unique
opportunity for fraud, abuse, and waste. Unless protected by concerned family or friends,
or by the policy and practices of the SNF, the extended care resident may be subjected to
some of the most egregious practices found in health care, with decisions on care
governed by greed, rather than medical need.




                                            24

                              CONCLUSIONS

Significant payments are being made for extended care resident services through the HI

and SMI programs. Consequently, monitoring services provided under these benefits and

addressing vulnerabilities are important, given Medicare’s potential exposure to abusive

practices.


This report and a companion report on durable medical equipment billed for SNF

residents receiving Medicare extended care benefits are the first in a series of reports

addressing nursing facility resident issues. Each report will focus on a known or potential

vulnerability related to either prudent use of tax dollars for resident care or quality of care

issues. The methodology used to gather information on each issue will vary; however, as

with this report, we plan to use statistical sampling of nursing facility residents to develop

the facts necessary to address each issue. The scope of our reviews will include

information concerning Medicare residents in all Medicare or Medicaid approved nursing

facilities. Additionally, Medicaid data will be evaluated as it relates to the issues under

review.


This review of SNF utilization of SMI services suggests the need for further work in at

least the following areas:


    1.	   The apparent wide State-to-State variation in extended care bed day costs for
          particular SMI services.

    2.	   The appropriateness of SMI payment for the millions of dollars paid each year
          for services normally included in the extended care benefit, and the resulting
          inequities in resident cost liability.

    3.	   The adequacy of a resident’s knowledge about the cost and frequency of services
          billed outside of the nursing facility’s bill.

    4.	   The policies and practices of various State Medicaid programs, as they
          contribute to program vulnerabilities in the Medicare extended care benefit.

    5.	   The monitoring of extended care utilization over time, and review of services
          experiencing rapid growth without any known reason (e. g., coverage change).

    6.    The lack of physician involvement in some SNF stays.

COMMENTS

The HCFA commented on this report. They agreed with our conclusions and suggested a
statutory “rebundling” provision for SNFS (similar to that for hospitals) is needed. We
agree that this is the direction to take. To assess the impact of rebundling, our office is



                                               25
presently conducting a more exhaustive analysis of services included in the extended care
benefit and also covered by the Supplemental Medical Insurance program.

We thank HCFA for their comments and look forward to working closely to improve
services fiu-nished under the extended care benefit. The full text of their comments is
provided in Appendix E.




                                             26
                                ENDNOTES�

1.   Data from the 1993 Green Book, Overview of Entitlement Programs. Prepared for
     the Committee on Ways and Means, U.S. House of Representatives. Pages 138
     and 140.

2.   Health Care Financing Review, Medicare and Medicaid Statistical Supplement,
     1992 Amual Supplement, page 97.

3.   However, these services can be paid for as a home health benefit.

4.   An episode of illness (or benefit period) begins on the first day the beneficiary
     received hospital services and ends when the patient has not been a hospital or
     SNF patient for 60 consecutive days.

5.   The coinsurance is equal to one-eighth of the HI deductible. For example, during
     1990, daily coinsurance payments for the 21st through 100th day were $74 per
     day.

6.   Section 1819(a) of the Social Security Act defines a SNF as “an institution (or
     distinct part of an institution) which is primarily engaged in providing to residents
     1) skilled nursing care and related services for residents who require medical or
     nursing care, or 2) rehabilitative services for the rehabilitation of injured, disabled,
     or sick persons. ” Also, a SNF is not providing care primarily for the care and
     treatment of mental diseases. This definition was formerly found in section
     1861Q)(1) and is often referred to as the “j1” provision.

7.   Services not covered by Medicare include personal convenience items (e.g.,
     television), private duty nurses, extra charges for a private room (unless needed for
     medical reasons), the fwst three pints of blood in a benefit period, and any other
     service, drug, or other item which could not be paid for under the hospital
     insurance program if furnished to an inpatient of a hospital.

8.   General Accounting Office report entitled “Improper Handling of Beneficiary
     Complaints of Provider Fraud and Abuse. ” GAO/HRD-92-l, released October
     1991.

9.   Every claim processed by Medicare carriers and intermediaries is maintained in the
     Common Working File. The CWF acts as an on-line Medicare beneficiary
     entitlement and utilization database and screens all claims prior to payment
     approval. The CWF is organized into nine localized databases called sectors. The
     country is divided into nine processing sectors where nine separate databases are
     maintained. Generally, these assignments are made on a geographic basis. Each
     Medicare beneficiary is assigned to only one of the nine databases; therefore, there
     is one CWF master record for each beneficiary. Each CWF database is maintained



                                            27
       by a designated host site. The Health Insurance Medicare Record (HIMR)
       program is an access method used typically by carriers to view the CWF record
       that shows complete entitlement, utilization, and claims payment data, including
       the beneficiary’s name, sex, birth date, HIC number, deductible status, claims
       history, Medicare Secondary Payer (MSP) status, and hospice or HMO enrollment
       status .

       The bulk of the statistical data collected by HCFA is a by-product of the CWF and
       is maintained in the Medicare Decision Support System (MDSS). The MDSS
       statistical files are generated by combining information from SSA on beneficiary
       eligibility with claims information from the CWF.

10.	   As provided in the Consumer Price Index for all urban consumers, the annual
       average medical inflation factor rose 7.4 percent from 1991 to 1992.

11.    Although not SNFS, swing-bed hospitals totaled 1,318 in 1992.

12.	   Beneficiary liability is applied to the total 1991 and 1992 costs of rehabilitation
       therapy ($45 million and $55 million, respectively) and the SMI category of
       medical equipment, supplies, prosthetics, and orthotics ($98 million and $112
       million, respectively). This cost is $310 million. Beneficiary liability is calculated
       by applying the 20 percent coinsurance and a deductible. Taking twenty percent of
       $310 million yields a coinsurance amount of $62 million. Because our data only
       reflected allowed amounts, we were not sure if a deductible applied for these
       services. However, we calculated an upper limit, due to the impact of a
       deductible, by assuming all stays had the $100 deductible applied to these services.
       Since approximately 369,100 stays had these services, the maximum deductible
       exposure is $37 million over the 1991 and 1992 period (1991 and 1992 deductible
       was $100). Adding coinsurance ($62) to the maximum deductible liability yields a
       beneficiary financial exposure for these services of somewhere between $62 million
       and $99 million.

13.	   OIG report entitled “Medicare Payments for Orthotic Body Jackets. ” 0EI-04-92-
       01080.

14.	   Payment For Durable Medical Equipment Billed During Skilled Nursing Facility
       Stays, 0EI-06-92-O0860.

15.	   The HCFA has regionalized the processing of claims for DME, prosthetics,
       orthotics, and supplies into four DMERCS. The HCFA has contracted with four
       carriers to provided greater efficiency, promote consistency, and improve accuracy
       in Medicare claims processing for these suppliers, as well as to help reduce fraud,
       waste, and abuse in the Medicare program. The DMERCS began processing
       claims in 1993.




                                             28

                                           APPENDIX                            A
                                                  HI CLASSIFICATION         SERVICES
                         Major   Classification    (2 catagotias)       Components      of Major      Catagon”es

                         ROOM AND BOARD
                         ANCILLARYSERVICES                          Pharmacy

                                                                    Lub

                                                                    Radiology

                                                                    supply

                                                                    Inhalation Therapy

                                                                    Rehabilitation

                                                                    Other



                                                  SMI CLASSIFICATION         OF SERVICES
            Major   Classification   (20 categories)                I                ComDonants         of Major    Cataaon-es



                                                                    Hospital Visits

                                                                    Emergency Room Visits

                                                                    Home Visits

                                                                    Nursing Home Visits

                                                                    Specialist Evaluation

                                                                    Consultations

ANESTHESIA

MAJOR AND MINOR MEDICAL PROCEDURES
                                 Major Procedures

I                                                                   Eye Procedures

I                                                                   Ambulatory Procedures

                                                                    Minor Procedures

ONCOLOGY      SERVICES
ENDOSC(

DIALYSIS SERVICES

IMAGING AND ECHOGRAPHY
                                             Standard Imaging

                                                                    Advanced Imaging

                                                                    Echography


    .AB AND OTHER TESTS                                             Lab Tests

                                                                    Other Tests

                                                                    Specimen Collection

MEDICAL EQUIPMENT, SUPPLIES, PROSTHETICS, AND                       Durable Medical Equipment

ORTHOTICS                                                           Braces, Trusses, and Artificial Limbs

                                                                    Casts, Splints, Fracture Reduction Devices, and Related Supply

                                                                    Surgical Dressings

                                                                    Prosthetic Dewces and Related Supphes

 AMBULANCE
,CHIROPRACTIC
 DRUGS
 VISION AND HEARING SERVICES/SUPPLY
 REHABILITATION THERAPY                                             Phystcal Therapy


I      . . . .. . TuFmamv
RESPlRP7nnv       . . .. .-,,
                                                                    Occupational Therapy

                                                                    SDeech
                                                                     r
                                                                            ~eraDv

                                                                                 . .




MENTALL HEALTH SERVICES
PODIATI‘RY SERVICES
LOCAL C( ARRIER CODES
MISCELLANEOUS OUTPATIENT SMI (intermediary -processed claims not categorized                above)

MISCELLANEOUS NON-INSTITUTIONAL SMI (carrier-processed claims (Ohvsicians,                supDliers,    etc.) not categorized   above)





                                                              A-1
                                          APPENDIX            B

                                   1992    SMI Services   by Category
                                                                                SNF STAYS              MEAN
                   (Projected from 1 percent sample]                          WITH THIS SERVICE    ALLOWED PER
                                                                ALLOWED       COUNT    PERcENT       SED DAY

..   EVALUATION                                           $97,240,391        674,700      69%       $3.82
        �   0FF3CEVISITS                                      ~4                97.61W               =9
                  NEW                                        6,236,946         41,000                0.25
                  ESTABLISHED                                3,663,628         66,300                0.14
        9   HOSPZTAL
                   WSZTS                                     $13.s49.557        77.500               w
                  INITIAL                                       848,732         9,800                 0.03
                  SUBSEQUENT                                12,527,052         71,300                 0.49
                  CRITICAL CARE                                 173,773         1,400                 0.01
        �   EMERGENCY ROOIUVISI!lS                            ~9                42.400               mu
        �   HOMEl?lSITS                                            $70.567       Lw                  kw
        �   SPECLWISTEVALUATION                              U!wM!l             38.WUI               Wd4
                  PATHOLOGY                                  1,513,675         14,100                 0.06
                  OPTHAMOLOGY                                1,227,041         20,800                 0.05
                  OTHER                                        894,240          4,400                 0.04
        �   CONSULTAZTONS                                    $10.131.32~        W.m                  ~o
        �   NURS3NGHOMEV3SllS                                $9.336.112        &LuQf?     m          U4

     ANESTHESIA                                            $2.465,554          9,600       1%       $0.10


     MAJOR AND MINOR MEDICAL PROCEDURES $29.960,523                          122,500      12%       $1.18

        �   WOR PROCEDURES                                    mz&f4$            J3*5@      L%        ~9
                  BREAST                                       134,544            100      o%        0.01
                  CHOLECYSTECTOMY                                  14,684         100      o%         0.00
                  TRANSURETHRAL RESECTION (TURP)                   82,300         100      o%         0.00
                  OTHER                                      1,971,710          6,100      1%         0.08
                  CARDIOVASCULAR                             3,826,233          6,300      1%         0.15
                        OTHER                                   3,826,233         6,3W        1%          0.15
                  OTHOPEDIC                                  1,245,974          1,900      o%         0.05
                          HIP FRAC7URS REPAIR                     216,4S9           300       o%          0.01
                                                                  2M,231                                  0.01
                          RIP REHAcEmENr
                          OlllER                                  745,284                     E           0.03

        ~ EYEPROCEDURES                                       Q&U&M              G         B          u
                  CATARACT REMOVAL/LENS INSERTION            2,272,851            900      o%         0.09
                  TREATMENT OF RETINAL LESIONS                 106,842            200      o%         0.00
                  OTHER                                        478,143            700      o%         0.02
        ~   AMBZ.LWORYPROCELWUES                             @3a61$.372         iua        23         w
                  SKIN                                       4,762,243          9,800      1%         0.19
                  MUSCULOSKEL~AL                               650,890          1,700      o%         0.03
                  INGUINAL HERNIA REPAIR                        129,159           200      o%         0.01
                  OTHER                                      8,076,080         13,700      1%         0.32
        =   MINORPROCEDURES                                   $6.208.870        XbzQQ      ~          $&g
                  SKIN                                       3,712,634         73,700       7%        0.15




                                                   B-1

                                                                                   SNFSTAYS             MEAN
                                                                                 WITH THIS SERVICE   ALLOWED PER
                                                                     ALLOWED     COUNT PERCENT         BED DAY

             MUSCULOSKELETAL                                        638,531         7,700    1%         0.03


ONCOLOGY                                                      $20,746,148         12,300     lyo      $0.82

             RADIATION    THERAPY                                20,562,892       10,500     1%         0.81


ENDOSCOPY                                                      $7,364,074        14,100      1%       $0.29

             UPPER GASTROINTESTINAL         (G.1.)                3,005,764        6,600     1 oh      0.12
             SIGMOIDOSCOPY                                           136,635       1,600     0%        0.01
             COLONOSCOPY                                          2,233,372        2,700     o%        0.09
             CYSTOSCOPY                                           1,272,835        2,300     o%        0.05
             BRONCHOSCOPY                                           348,085           600    o%        0.01
             LARYNGOSCOPY                                           139,724         1,000    o%        0.01


DIALYSIS SERVICES                                             $16,156,502        12,500      1%       $0.64

             PROCEDURES                                          15,659,218       11,900     1 ok      0.62


IMAGING   AND ECHOGRAPHY                                      $45,304,645       312,000     32%       $1.78

   �   STWDARD Zi#XGZNG                                          $31.823.040      2%. 700   ~          us
             CHEST                                               7,578,630       170,500    17%        0.30
             MUSCULOSKELETAL                                     8,834,755       131,900    13%        0.35
             BREAST                                                  68,959         1,300    o%        0.00
             CONTRAST     GASTROINTESTINAL           (G.1.)      2,574,734        18,300     2%        0.10
             NUCLEAR MEDICINE                                     1,725,879        7,600     1%        0.07
             OTHER                                                1,975,380       30,100     3%        0.08
             TRANSPORT     AND SETUP OF X-RAY                     9,064,703       91,500     9%        0.36
             EQUIPMENT
   =   ADVANCED IMAGING                                            $3bmQQ?         21.81M    ~         =5
             CAT SCAN - HEAD                                      4,359,456       11,400     1%        0.17
             CAT SCAN - OTHER                                     2,811,082        8,200     1%         0.11
             MRI - BRAIN                                             879,609       2,100     o%         0.03
             MRI - OTHER                                             734,856       1,200     o%         0.03
   �   ECHOGRAPHY                                                  &wLw            17.600    ~         $(W
             EYE                                                     91,569         1,000    o%        0.00
             ABDOMEN/PELVIS                                         703,711        5,500     1%         0.03
             HEART                                                1,432,706        4,300     o%         0.06
             CAROTID ARTERIES                                       586,324        2,600     o%         0.02
             PROSTATE, TRANSRECTAL                                   16,990           200    o%         0.00
             OTHER                                                  556,523         5,600    1%         0.02
   m IMAGING PROCEDURES                                            $1.308.779       ~o       &         XL@
             HEART (e.g., cardiac catheritization)                  278,450           200    o%        0.01
             OTHER                                                1,030,329         1,800    o%         0.04


                                                      B-2

                                                                                    SNFSTAYS             MEAN
                                                                                 WITH THIS SERVICE   ALLOVVED PER
                                                                   ALLOWED       COUNT    PERCENT       BED DAY


LAB AND OTHER TESTS                                          $71,603,409        436,600      44°A     $2.81

   B   LAB TESTS                                                $62.518.808       424,900     ~         =6
             ROUTINE VENIPUNCTURE                               3,760,398       261,900      27%        0.15
             AUTOMATED         GENERAL PROFILES                11,949,187       253,000      26%        0.47
                URINALYSIS                                       1,986,947       167,100     17%        0.08
                BLOOD COUNTS                                     8,001,061      256,300      26%        0.31
                GLUCOSE                                          1,627,472        44,300      5%        0.06
                BACTERIAL CULTURES                              6,964,804       166,000      17%        0.27
                OTHER                                          28,228,939       326,900      33%        1.11
   �   OTHER TESTS                                               ~9                65.900     ~         =5
                ELECTROCARDIOGRAM                                1,773,822        38,400      4%        0.07
                CARDIOVASCULAR  STRESS TEST                         42,628            600     o%        0.00
                EKG MONITORING                                     681,614         3,800      o%        0.03
                OTHER                                           3,895,545         31,700      3%        0.15
   ~ SPECIMEN COLLEC170N                                         &WW2             208.400 ~             w
MEDICAL EOUIPMENT, SUPPLIES,                                $112,190,827        201,500      20%      $4.41
PROSTHETICS, AND ORTHOTICS
   �   DURABLE MEDICAL EQU7PMENT                                $10.599,100        69,000     ~         $!242
             HOSPITAL        BEDS AND ACCESSORIES               2,056,934         15,900      2%        0.08
             OXYGEN EQUIPMENT AND SUPPLIES                      3,591,583         10,800      1%        0.14
             WHEELCHAIRS AND ACCESSORIES                         1,861,161        26,500      3%        0.07
             OTHER DME                                           1,020,939        13,600      1%        0.04
             WALKERS                                               904,402        13,500      1%        0.04
             CANES AND CRUTCHES                                    118,657         3,600      o%        0.00
             COMMODES                                              609,216         8,500      1%        0.02
             SEAT/PATIENT LIFTS                                    130,808         1,100      o%        0.01
             TRANCUTANEOUS/N    EURO MUSCULAR                       43,991           200      o%        0.00
             ELECTRICAL NERVE STIMULATION   (TENS)
             PRESSURE PADS, CUSHIONS,          AND                 261,409         2,700      o%        0.01
             MATTRESSES
   m   BRACES, TRUSSES,ARlWKX4L LIMBS                           $11.898.957        13.700               =7
             BRACES AND TRUSSES                                  5,678,758        11,500                0.22
                        BRACES AND TRUSSES - BODY JACKEKS           1,131,419        1,200                0.04
             ARTIFICIAL      LIMBS                               6,220,199         2,500                0.24
   �   CASZS, SPLINTS, AND l?UACTUREREDUCTION                                       ~w                  ~o
       DEVICES
                        RBCUMBENTANKLE POSITIONING SPLJNT           2,320,190        3,700     o%           0.09
                        (i.e., mdi-padus)
   m   SURGIW     DRESSINGS                                      $!Las!m            ~w                  =5
             SURGICAL DRESSINGS (PRIMARY)                          331,716           800                0.01
             GAUZE, BANDAGES, AND TAPE                           2,825,298         5,900                0.11
             ADHESIVE AND REMOVER                                3,321,664         4,600                0.13
   �   PROSTHE17CDEWCES AND RELATED SUPPLY                      $80.622.526       131.800               =7
                ENTERAL NUTRITION     EQUIPMENT      AND       57,530,045         58,700                2.26



                                                  B-3
                                                                                      SNF STAYS            MEAN
                                                                                   WITH THIS SERVICE   ALLOWED PER
                                                                      ALLOWED      COUNT    PERCENT       BED DAY

            SUPPLY
                     FEEDING SUPPLY W     AND MlSC. SUPPLY           23,949,537       57,700    6%         0.94
                     TUBING                                              700,335      17,700    270        0.03
                     FORMULAE                                        24,664,781       57,900    6%         0.97
                     INFUSION PUMPS                                   8,215,392       41,900    490        0.32
            PARENTERAL        NUTRITION   EQUIPMENT        AND     2,599,228            400    o%         0.10
            SUPPLY
                     NUWUTION SOLUTIONS                               2,227,200                            0.09
                     INFUSION PUMPS                                     137.460                            0.01
                     ADMINISTRATION KITS @er day) AND MISC.             234;568                            0.01
                     SUPPLY
            MEDICAL AND SURGICAL          SUPPLIES                14,303,140       66,800      7$4        O.:;
                   SKIN BARRIER
                                        216,288        2,800    o%
                     LUBRICANIS
                                        833,024        4,800    o~o        0:03
                     STERILE SALINE
                                    919,116        9,000    I q.       0.04
                     OSTOMY IRRIGATION K17X
                          2,283,084        1,400    o%         0.09
                     TRACHEOTOMY CARE lU13
                             814,878        1,300    o%         0.03
                     APPLIANCE CLEANER
                                  23,652          500               0.00
                     DLWOSABLE UNDERPADS
                                    238         200    :;         0.00
                     SURGICAL TRAYS
                                                            o%         0.00
                     OTHER
                                           8, 77;79        52,:      5%         0.35
            CATHETERS AND RELATED ITEMS                            4,930,637       36,700      4%         0.19
            TRACHEOTOMY   DEVICES AND ITEMS                          317,387           900     o%         0.01
            OSTOMY AND RELATED ITEMS                                 524,958         5,200     1%         0.02
            MISCELLANEOUS DME RELATED SUPPLIES                         50,512           500    o%         0.00
            OTHER MEDICAL        DEVICES AND SUPPLY                  366,619         1,000     o%         0.01

AMBULANCE                                                     $36,103,575          75,600      8%       $1.42

            BASIC LIFE SUPPORT TRANSPORT                          20,245,753       65,300      7%         0.80
            ADVANCED      LIFE SUPPORT                             9,954,273       33,100      3%         0.39
            NON-EMERGENCY         TRANSPORT                        5,300,324       21,200      2%         0.21
            OXYGEN    AND MED!CAL SUPPLIES                           603,225       19,300      2%         0.02

CHIROPRACTIC     SERVICES                                           $11,298
           100     o%       $0.00

DRUGS AND BIOLOGICAL                                             $2,259,165        19,400      2%       $0.09

            CHEMOTHERAPY   DRUGS                                     949,169         2,100     o%         0.04
            OTHER DRUGS/lNJECTIONS                                 1,309,996        18,700     2%         0.05

VISION AND HEARING SERVICES AND                                    $293,717         1,700      o%       $0.01
SUPPLY

            VISION   SERVICES AND SUPPLY                             293,717         1,700     o%         0.01

REHABILITATION    THERAPY                                     $55,070,239          30,200      3%       $2.16

    w PHYSICAL THERAPY                                            $32.086.132        23.100     a         ~6
    8 OCCVPAIYONAL THERAPY                                         $16.095.257       11.800     ~         w
    8 SPEECH THERAPY                                                $6.888.850        4.700     B         =7
RESPIRATORY THERAPY                                                 $12,235            400     o%       $0.00



                                                     B-4
                                                                   SNF STAYS           MEAN
                                                                WITH THIS SERVICE   AUOWED   PER
                                                     ALLOWED    COUNT    PERCENT      BED DAY


MENTAL HEALTH SERVICES                           $5,360,954     28,100      3%       $0.21

PODIATRY SERVICES AND ROUTINE FOOT                 $622,665     23,500      2%       $0.02
CARE


MISCELLANEOUS       INSTITUTIONAL     PART B     $6,112,422     38,000      4%       $0.24
(OUTPATIENT]

               BLOOD AND RELATED SUPPLY            1,555,118      4,100     o%         0.06
               ACCOMMODATIONS                           1,800       100     o%         0.00
               MISCELLANEOUS  UNDEFINED            4,214,976    33,500      3%         0.17
               INSTITUTIONAL SERVICES


OTHER                                              $776,426     16,800      2%       $0.03

               UNDEFINED   CODES                     737,710     15,800     2%         0.03

CARRIER LOCAL CODES                              $7,772,638     42,800      4%       $0.31




                                          B-5

                                       APPENDIX                         C

                       1992 State Bed Day Costs and Utilization
                                         SNF       COVERED DAYS                ALLOWED     SED DAY   % of STAYS
                       BENEFICIARIES    STAYS     TOTAL  PERCENT                            ~         WfTH SMI


ALABAMA                        97        133           3,831     1.5%         $6,755,362   $17.63     86.0%
ALASKA                          3          3                    0.0%             $32,738    $7.61     33.0%
ARIZONA                       132        165       3,3:          1.3%         $6,058,188   $18.01     79.0%
 ARKANSAS                                 97       2,312        0.9%          $4,562,636   $19.73      85.0%
 CALIFORNIA                   9:	      1,219      26,520       10.4%         $49,780,921   $18.77      79.0%
 COLORADO                     116        145       3,345        1.3%          $4,948,417   $14.79      80.0%
 CONNECTICUT                  132        180       6,827        2.7%         $14,490,384   $21.23     94.0%
 DELAWARE                      23         29         735        0.3%          $2,375,904   $32.33     93.0%
DISTRICT OF COLUMBIA                                   113      0.0%             $55,343    $4.90    Ioo.o%
FLORIDA                       52;        67?       18,819       7.4%         $47,478,140   $25.23     85.0%
GEORGIA                        95        129        4,405       1.7%          $7,863,700   $17.85     85.0%
HAWAII                          7          7          207       0.1%            $573,305   $27.70     71.0%
IDAHO                                               1,000       0.4%            $469,379    $4.69     66.0%
ILLINOIS                     x           5;        12,611       5.0%         $22,578,139   $17.90     82.0%
INDIANA                      274         330        8,965       3.5%         $15,833,670   $17.66     80.0%
IOWA                         162         174        2,532       1.0%          &l#;~        $11.92     76.0%
KANSAS                       118         148        2,343       0.9%                       $12.79     82.0%
KENTUCKY                       95        132        4,169       1.6%          $5;584;659   $13.40     73.0%
LOUISIANA                      99        124        1,856       0.7%          $6,459,883   $34.81     85.0%
MAINE                          12         14                   0.1%             $114,053              71.0%
MARYIAND                                            3,?:       1.2%           $7,760,926   $E:$       89.0%
MASSACHUSHTS                 2;;         ;%         9,827      3.9%          $15,260,372   $15.53     86.0%
MICHIGAN                     295         376       11,135      4.4%          $28,942,464   $25.99     90.0%
MINNESOTA                    244         326        8,131      3.2%           $8,020,712    $9.86     71 .0%
MISSISSIPPI                                         1,633      0.6%           $3,192,947   $19.55     85.0%
MISSOURI                     2;;         3:;        7,017      2.8%          $12,132,267   $:.;;      80.0%
MONTANA                       40          66        1,190      0.5%             $333,979              56.0%
NEBRASKA                                            1,5%       0.6%           $3,225,369   $20:21     74.0%
NEVADA                         z          :;                   0.3%           $1,026,019   $12.99     84.0%
NEW HAMPSHIRE                  16                     :%       0.2%             $700,244   $11.29     86.0%
NEW JERSEY                               Ifi        3,617      1.4%           $8,988,924   &          90.0%
NEW MEXICO                    ;;          23          615      0.2%           $1,236,606              65.0%
NEW YORK                     411         494       18,799      7.4%          $44,984,916   $23:93     92.0%
NORTH CAROLINA               176         204        7,309      2.9%          $16,227,163   $;;.;:     86.0%
NORTH DAKOTA                                        1,042      0.4%             $972,147              64.0%
OHIO                         G           5:        13,832      5.4%          $28,281,110   $20:45     87.0%
OKIAHOMA                      81                    1,564      0.6%           $2.374,019   $15.18     77.0%
OREGON                                    E         2,373      0.9%           $3,864,239   $16.28     73.0%
PENNSYLVANIA                 4;;         645       16,260      6.4%          $53,011,381   $32.60     92.0%
PUERTO RICO                    10                     212      0.1%             $448,999   $21.18     75.0%
RHODE ISLAND                  41          ::        1,535      0.6%           $2,435,235   $15.86     94.0%
SOUTH CAROUNA                 65                    2,553      1.0%           $8,113,384   $31.78     82.0%
SOUTH DAKOTA                              :;          924      0.4%           $1,704,265   $18.44     89.0%
TENNESSEE                     1;:                   4,832      1.9%           $9,815,559   $20.31     87.0%
TExAs                                    w         11,731      4.6%          $254##g       $21.69     74.0%
UTAH                           50         63        1,274      0.5%                         $6.15     60.0%
VERMONT                         8                      129     0.1%              $50;580    $3.92     75.0%
VIRGINIA                                 11!        3,833      1.5%          $10,168,266   $26.53     93.0%
WASHINGTON                    1?;        190        3,950      1.6%           $5,559,224   $14.07     80.0%
WESI’ VIRGINIA                                      1,613      0.6%           $2,854,498   $17.70     79.0%
WISCONSIN                     1?:        2:;        6,487      2.6%           $7,247,442   $11.17     75.0%
WYOMING                        17         22          489      0.2%             $232,301    $4.75     73.0%

                            7,752      9,833     254,353                    $517,427,407
                       ‘~
                                    Unpiojected Data
                                    @m 1percmt qk)


                                                   c-1
                                APPENDIX                          D

                    1992             Provider     Specialties     By State
                   ~-of          SIF cbup       prsvWd by Uk -        w u@pti@t)



                       Su   Dolier       ~         Outzmtient    Physician   Ambulmce      w

 ALABAMA               36.4%             9.0%        27.0%         7.4%            13.8%     4.7%
 ALASKA                  0.0%           12.9%        52.6%         3.6%             0.0%   30.9%
 ARIZONA                17.4%            5.8%        27.7%        25.6%             9.6%   10.1%
 ARKANSAS              45.5%              1.7%       23.3%        10.2%             4.6%   14.1%
 CALIFORNIA             12.8%            3.4%        33.9%        28.3%             5.8%   11.0%
 COLORADO                3.9%            7.5%        41.1%        18.8%            10.6%   15.6%
CONNECTICUT             15.4%            5.4%        35.0%        16.5%            15.6%     4.2%
DELAWARE                12.6%            4.8%        36.6%        19.4%             7.7%     8.7%
DISTRICT OF COLUMBIA     0.0%           13.0%         0.0%         0.0%             0.0%   40.6%
FLORIDA                22.6%             5.6%        40.2%        11.4%             3.1%   10.0%
GEORGIA                15.8%             8.6%        46.2%         8.6%            10.5%     8.1%
HAWAII                 37.1 %            2.3%        34.0%        17.5%             5.5%     3.6%
IDAHO                    0.0%            4.4%        46.4%        26. I %           0.0%   16.6%
ILLINOIS               20.3%             5.2%        26.9%        23.0%             5.8%   12.7%
INDIANA                19.5%             4.3%        48.2%        12.8%             4.6%     6.4%
IOWA                   18.0%             1.3%        21.2%        26.6%             2.5%   26.9%
KANSAS                 13.9%             1.8%        14.1%        27.7%             1.2%   36.7%
KENTUCKY               49.1%             8.3%        12.8%        11.8%             5.7%   10.0%
LOUISIANA                6.9%            0.5%        32.3 %       41.2%             1.4%   16.8%
MAINE                    7.9%            3.5%         0.0%        36.2%             0.0%   32.0%
MARYLAND               24.9%             8.0%        30.3%         9.3%            11.5%     5.9%
MASSACHUSETTS          12.5%             9.0%        30.0%        16.6%            11.3%     3.6%
MICHIGAN               19.4%             4.5%        43.2%         4.7%             3.0%     7.6%
MINNESOTA              15.6%             1.6%        50.8%        16.2%             2.2%   10.4%
MISSISSIPPI              4.2%            3.8%        70.6%         8.6%             0.4%   11.9%
MISSOURI               13.6%             2.6%        40.1%        23.0%             2.3%   11.7%
MONTANA                  6.6%            1.5%         0.0%        65.1 %            4.8%   21.2%
NEBRASKA               24.0%             1.1%        45.8%        15.4%             1.8%   11.6%
NEVADA                 11.0%             5.9%        23.9%        26.9%             3.6%   16.4%
NEW HAMPSHIRE            2.1%            7.0%        45.4%        19.2%             0.0%     5.3%
NEW JERSEY             28.5%             9.6%        29.5%        12.6%             6.4%     3.8%
NEW MEXICO             32.8%             1.4%        49.3%         5.6%             3.0%     7.1%
NEW YORK               31.6%             6.7%        19.3%        16.6%             8.7%     7.7%
NORTH CAROUNA          22.7%             3.5%        56.0%         7.8%             2.7%     4.9%
NORTH DAKOTA           25.6%             1.2%        46.6%        12.3%             2.9%   10.5%
0!+10                  17.3%             8.1%        37.5%        12.4%             7.9%     8.4%
OKIAHOMA               27.7%             2.8%        20.4%        29.7%             1.4%   15.3%
OREGON                 12.9%             3.4%        52.9%        16.7%             3.3%     6.8%
PENNSYLVANIA           15.1%             3.0%        45.4%        11.1%            12.3%     6.1%
WERTO RICO             35.8%             0.0%         0.0%        56.3%             0.0%     7.9%
RHODE ISLAND           26.2%            10.7%        11.8%        20.8%             9.8%     2.5%
SOUTH CAROUNA          24.8%             2.3%        46.5%         6.1%            15.6%     3.0%
SOUTH DAKOTA            4.7%             2.5%        66.7%         9.4%             0.0%    14.8%
TENNESSEE              27.2%             5.8%        40.2%        12.2%             6.7%     6.7%
                       17.9%             2.5 %       39.0%        17.2%             9.8%    11.1%
UTAH                   11.0%             8.7%         0.0%        29.4%             9.2%   26.4%
VERMONT                  0.0%            0.0%        36.4%        29.1 %            0.0%   20.5%
VIRGINIA               26.9%             4.2%        49.2%         7.0%             3.6%     6.8%
WASHINGTON             13.9%             6.6%        35.4%        15.5%             5.0%    14.4%
WEST VIRGINIA          23.5%             1.0%        43.8%        15.1%             3.1%   12.0%
WISCONSIN              23.5%             3.8%        42.0%        14.2%             4.1%     7.6%
WYOMING                  2.5%            5.8%         3.3%        43.7%             0.0%   44.8%




                                                   D-1

                                                  APPENDIX              E
                                                   HCFA COMMENTS




     ,,...-, *,<                                                                     Health Care
 �
 .+’


‘Jf
.“                 DEPARTMENT        OF HEALTH     & HUMAN   SERVICES                Financing Admm!scratmn



‘“”’+a             —                                                                 Memorandum
       Date        “
                        SE?      2 1994

       From            Bruce   C. Vladec
                                           *WC’       &
                       Administrator       ~

       Subject                                 b
                       June Gibbs Brown
                       Inspector General
       To
                       Office of Inspector General (OIG) Draft Reports: “Medicare Services Provided to
                       Residents of Skilled Nursing Facilities, AU overview: (C)EII-06-92-00863) and
                       “Payment for Durable Medical EquipmentBilledDuringSkilled Nursing Facility
                       sta~” (OEI-06-92-00860)


                       We reviewed the subject reports which examined Part B services for skilled
                       nursing facility patients md prOvi&dan overviewof many of the abusive practices
                       and program vulnerabfities that unbundhg of sem-ices encourages. Our
                       comments are attached for your consideration.

                       Thank you for the opportunity to review and comment on these reports. Please
                       advise us if you would like to discuss our position on the reports’
                       recommendations at your earliest convenience.

                       Attachment




                                                             NOTE

                        These comments from HCFA pertain to two OIG reports. Comments
                          specific to this report can be found on page 4. Other comments
                            pertain to our report entitled “Payment for Durable Medical
                              EquipmentBilledDuring Skilled Nursing Facility Stays. ”


                                                              E-1

            Comments of the Health Care Financin~ Administration (HCFA)

            on Office of Inspector General (OIG) Draft Re~orts: “Medicare

              Services Provided to Residents of Skilled Nursing Facilitiesl

                          An Ovewiew,” (OEI-06-92-00863) and

                   “Pavrnents for Durable Medical m uipment (DME)

                   Billed Dunn~ Skilled Nursin~ Facility (SNF? stays”

                                   [OEI-06-92-00860)



OIG Recommendation

HCFA should improve the place of service coding system. HCFA could:

      a)	       Develop guidelines which eliminate the use of the “other” code for
                DME billing, or develop a specific list of circumstances under which
                “other” may be used to bill.

     .b)	       Educate the Durable Medical Equipment Regional Carriers
                (DMERCS) on the accurate use of place of service codes.

      c)	       Require the DMERCS to provide ongoing education to the suppliers
                on the accurate use of place of seMce codes.

      d)	       Suggest that the DMERCS develop an item for inclusion in their
                data base, that is transmitted to the Common Working File (CWF),
                to provide a continuing history of the patient’s location.

m FA Resuonse

     a)	        We do not concur. We believe carriers should have the option to
                use the Categoy “other” to indicate place- of seMce (POS). Further,
                it would not be possible to predict every possible POS that might
                occur. To remove this option will impede the claims process and
                unnecessarily burden the beneficiaries and suppliers.

                A more appropriate action would be to have the DMERCS with
                data provided by the statistical Analysis DIvE regional carrier
                (SADMERC), perform reviews on those suppliers who consistently
                use the “other” POS category and take appropriate action, such as
                supplier education, based on the reviews.

     b)	        We concur. We believe that tie DMERCS        are how]edgeable   about
                the use of the POS category because of the clear requirements
                developed for its use. We believe it is tiportant to maintain this




                                          E-2
Page 2

             knowledge, and plan to follow-up through routine monitoring and
             educational activities.

       c)	   We concur. Current]y, the DMERCS actively educate suppliers
             regularly through various methods such ax educational seminars,
             newsletters meetings, and provider education telephone lines and
             bulletin boards. Most significantly, the DMERCS utilize the supplier
             manual as an effective training tool, a method not previously used by
             local carriers.

             Each supplier who bills the DMERC receives a manual and regular
             educational updates. The manual includes billing instruction
             explanations of Medicare rules and regulations and explanations of
             the DMERCS medical review policies.

      d)	    HCFA concurs. We currendy transmit the POS with eve~ claim to
             the CWF and store in the CWF. This provides continuing
             information regarding the patient’s location. Short of manually
             reviewing each and every DIME claim submitted to determine the
             beneficiary’s true location, which is highly i.mpractica~ we believe a
             combination of this metiod and the one described in “a” above is
             appropriate.

OIG Recommendation

HCFA Shcmld improve the supplier knowledge of beneficial      location.   HCFA
could:

      a)	    Ensure that the DMERCS instruct suppliers of their responsibility for
             determining the location of a beneficiary, before billing Part B DME.

      b)	    Suggest to the DMERCS that suppliers should be required to verify
             the patient’s location on every claim submitted for Part B DME, to
             determine if the beneficiary is currentiy in their home and using the
             DME.

      c)	    Require the supplier to review the accuracy of payment for DME
             made during a 6-month period.




                                        E-3
Page 3

HCFA Response

         a)	   We concur. As noted in our response above, we will have the
               DMERCS use the many educational methods at their disposal (see
               “c” in response above) to remind suppliers of this responsibility.

      b)	      We do not concur and believe this is impractical. We suggest that
               the DMERCS perform sample reviews of claims to verify a supplier’s
               record at the National Supplier Clearinghouse and share with the
               other DMERCS so that all can take appropriate action on that
               supplier’s claims.

      c)       We do not concur. By submitting the information on the claim, a
               supplier is attesting to his or her belief in the accuracy of the
               information. We believe the methods of education and sample
               review discussed above are the appropriate methods of determining
               the acxuracy of payment made.

f31G Recommendation

HCFA should review the DMERC processes.         HCFA could:

     a)	       Assessthe effectiveness of the new CWF edit of Part B DME and
               SNF charg+ and evaluate whether additional edits should be
               developed to review all SNF bill% upon submission, for overlap with
               DME billing.

     b)	       Require amual review during the first few years following DMERC
               implementation, of DME billed and allowed during an SNF stay, to
               examine the impact of DMERC implementation on this problem.

~CFA Response

     a)	       We concur. It has always been our intention to determine other
               edits that could be put into place to improve this process. We � re
               continually striving to improve CWF editing. We have been waititig
               for DMERC transition activities to be completed before making
               improvements. It is important to establish and stabilize a system
               before improving upon it, The final States transitioned in July. AS
               we finish transition-related activities, we will move forward with
               improving the edits.




                                       E-4

Page 4

         b)	   We do not concur. While -,e will strongly encourage the DMERCS
               to examine this prob]em, we do not believe we should require such
               reviews. We believe it is important to allow the DMERCS the
               flexibility to use the limited review resources available to them on
               immediate problems they have identified in their respective region%
               or major problems which they have learned of through the
               SADMERC that may have even greater impact on the process.

Comments on Report (OEI-06-92-00863]

On page 19 of the overview repo~ a “vulnerability in the definition of extended
care services” is discussed. The implication is that a change in this definition
would remove the vulnerability. We do not agree. The cited definition merely
deseriies services that can be covered under Part A. It does not mandate billing
in any particular manner. Similar language appears in section 1861(b)(2) of the
SO&l Security Act with respect to inpatient hospital sefice~ and does not create
a wdnerability there. To achieve the result desired by both OIG and HCF~ a
statutory “rebundling” protilon for SNFS (similar to that for hospitals) is needed.
That would require SNFS to bill for all services furnished to the residen~ thus
preventing beneficiaries from paying deductibles and coinsurance they would not
otherwise incur under Part A. It would also help us to develop an effective SNF
prospective payment system by preventing services from being billed outside of the
SNF benefit,

we agree widI 010’s conclusions. ~ addition, we believe thati (1) for many
dually-eligible Medicare/Medicaid patients based on the Medicaid State plans
payment ceiling, the Medicare program is reimburskg the provider fully for the
aerviees provided to the dually-eligiile patien~ (2) some of the items billed to the
e8niers as DME may have also been claimed on the Medicare cost report as
eitherroutine or ancillary medical equipment even bough a supplier provided the
equipmen~ (“ because SNFs are “sowed to unbundle anti.lkq servicq we have
not found an excessive amount of items and seMces that could only be billed aa.
routine, being billed in some other payment meth~, and (4) the excessive
payments for rehabilitation setices were made to SNFS providing therapy servi@s
undar arrangements with outside contractors and outpatient physical therapy
p-m        whkh are both paid on a coat be      ratier than independent therapists
which are paid on a charge basis.            ,\




                                        E-5
                                    GLOSSARY�


Artificial Limb - Replacement for a natural limb (prothesis).

Brace - An orthopedic appliance or apparatus (orthosis), usually made of metal or leather,
applied to the body, particularly the trunk and lower extremities, to support the weight of the
body, to correct deformities, to prevent deformities, or to control involuntary movements,
such as occur in spastic conditions. In some cases bracing is needed after remedial surgery.
Back braces are used to treat certain kinds of backache.

Cardiac Catheterization - The insertion of a catheter into a vein or artery and guiding it into
the interior of the heart for purposes of measuring cardiac output, determining the oxygen
content of blood in the heart chambers, and evaluating the structural components of the heart.
It is indicated whenever it is necessary to establish a precise and definite diagnosis in order to
determine whether heart surgery is necessary and to plan the surgical approach.

Carriers - Part B contractors that provide administrative services, for given geographic
territory, to all beneficiaries, physicians, and various suppliers of service, e. g., lab,
ambulance, and durable medical equipment in that area that are ~t connected with an
institutional provider; process only claims which are paid from Medicare Part B trust funds.

Casts - A stiff dressing or casing, usually made of plaster of Paris, used to immobilize body
parts.

CAT Scan - A revolutionary radiologic imaging modality that uses computer processing to
generate an image of the tissue density in a “slice” about 1 centimeter thick through the
patient’s body.

Catheter - A tubular, flexible instrument passed through body channels for withdrawal of
fluids from (or introduction of fluids into) a body cavity.

Cholecvstectomv - Excision of the gallbladder,

Coinsurance - The percentage of the balance of covered medical expenses that a beneficiary
must pay after payment of the deductible. Under Medicare Part B, the beneficiary pays
coinsurance of 20 percent of allowed charges. See Copayment, Deductible.

colonoscoDY - Endoscopic examination of the colon, either transabdorninally through
Iaparotomy, or transanally by means of a colonoscope.

~                                - A pre-payment claims validation and Medicare Part A/Part B
benefit coordination system which uses localized data bases maintained by a host contractor;
the host contractor provides Medicare contractors within a geographic area (referred to as
sector) with beneficiary entitlement and eligibility data.



                                            Glossary - ~
Contractor - Private health insurers, State, and public or private organizations which process
Medicare claims and make payments     to providers   of services   and to beneficiaries.


Co~aYment - The sum of coinsurance and deductibles. Altermtively, a fixed dollar amount
per service that is the responsibility of the beneficiary. See Coinsurance, Deductible.

Current Procedural Terminolosw (CPT) - The coding system for physicians’ services
developed by the American Medical Association; basis of the HCPCS coding system for
physicians’ services. See Coding, HCFA Common Procedures Coding System.

Customarv Charge - The amount physicians or suppliers usually bill patients for furnishing
particular services or supplies.

Customarv, Prevailing. and Reasonable (CPR] - One method used for reimbursement of
services which typically limit reimbursements for services to the lowest of the provider’s
actual charge, the provider’s customary charge for comparable services, or the prevailing
charge in the area.

Cvstoscotlv - Examination of the bladder by means of a cystoscope, a hollow metal tube that
is introduced into the urinary meatus and passed through the urethra and into the bladder. At
the end of the cystoscope is an electric bulb that illuminates the bladder interior. By means of
special lens and mirrors the bladder mucosa is examined for inflammation, calculi, or tumors.

Deductible - A specified amount of covered medical expenses that a beneficiary must pay
before receiving benefits. In 1992, Medicare Part B had an annual deductible of $100.

Diamosis-Related Grou~ (DRG] - The prospective payment system established using one price
for each DRG based on diagnosis and other characteristics. System used to classifi patients
into clinically coherent and homogeneous groups that use similar resources. Prices are
established in advance for the coming year, and hospitals are paid these prices regardless of
the costs they actually incur.

Discharge - The termination of a period of inpatient SNF or the formal release of the inpatient
by the hospital.

Dressing - Any of various materials used for covering and protecting a wound. A pressure
dressing is used for maintaining constant pressure, as in the control of bleeding. A protective
dressing is applied to shield a part from injury or from septic infection.

Durable Medical Eaui~ment (DME~ - Medicare-covered items such as oxygen equipment,
wheelchairs, and other medically necessary equipment prescribed by a doctor for a patient’s
in-home use.

Electrocardiomam - The record produced by Electrocardiography, a tracing representing the
heart’s electrical action derived by amplification of the minutely small electrical impulses
normally generated by the heart.




                                           Glossa~ -2
End Stage Renal Disease (ESRD) - Individuals who have chronic kidney disease requiring

renal dialysis or a kidney transplant are considered to have end stage renal disease. To

quali~ for Medicare coverage, such individuals must be filly or currently insured under social

security or the railroad retirement system or be the dependent of an insured person.

Eligibility for Medicare coverage begins the third month after the month in which a course of

renal dialysis begins. Coverage may begin sooner, if the patient participates in a self-care

dialysis training program provided by an approved facility. Also, coverage may begin on

admittance to a hospital to receive a kidney transplant or to receive dialysis before the

transplant.


l%homa~hv - Ultrasonography, the use of ultrasound as a diagnostic aid. Ultrasound waves
are directed at the tissues and a record is made, as on an oscilloscope, of the waves reflected
back through the tissues, which indicate interfaces of different acoustic densities and thus,
differentiate between solid and cystic structures.

Endosco~v - Visual examination of interior structures of the body with an endoscope.

Enteral - Within, by way of, or pertaining to the small intestine.

Evaluation and Mana~ement Service - A nontechnical service provided by most physicians for
the purpose of diagnosing and treating diseases and counseling and evaluating patients.

Fee for Service - A system of paying physicians for individual medical services rendered, as
opposed to paying them salaries or cavitation payments. The CpR payment system and the
Medicare Fee Schedule are examples of fee for service payment methods. See Customary,
Prevailing, and Reasonable; Fee Schedules.

Fee Schedules - A predetermined flat maximum payment amount for individual procedure
codes within a type of service.   States may develop Medicaid fee schedules or adopt Medicare
fee schedules.

Global Service - A package of clinically related services treated as a unit for purposes of
billing, coding, or payment.

HCFA Common Procedure Codhw Svstem (HCPCS) - A coding system based on CPT, but
supplemented with additioml codes; required for coding by Medicare carriers. See Current
Procedural Terminology.

~                            - A large, centralized, and complex data processing environment
where state-of-the-art technology is being used, including computer hardware, operating
systems,and data communications networks; ma@ains databases on the various contractor
report items and uses that information to generate subsequent reports for HCFA and DHHS
managers’ use.

Home Health A~encv (HHA] - A public or private agency that specializes in giving skilled
nursing services and other therapeutic services, such as physical therapy, in your home;
Medicare will pay for such services provided certain conditions are met.



                                            Glossary -3
Home Health Services - Home health services are services and items furnished in patients’
homes under the care of physicians. These services are furnished by home health agencies or
by others under arrangements made by home health agencies. Services are furnished under a
plan established and periodically reviewed by a physician. The services include part-time or
intermittent skilled nursing care; physical, occupational, or speech therapy; medical social
services; medical supplies and appliances (other than drugs and biological); home health aid
services; and services of interns and residents.

HQSJXE    - A womm operated W a public w=y or privatew=y~ationwhich engages
primarily in providing pain relief, symptom management, and supportive services for
terminally ill people and their families.

ICD-9-CM - International Classification of Diseases, 9th Revision, Clinical Modification. A
statistical coding classification system used to measure the incidence of disease, injury, and
illness.

-g       - The production of diagnostic images.

Intermediaries - Contractors that perform Medicare administrative services for institutional
providers, i.e., hospitals, SNFS, HHAs, and hospices. See Home Health Agency, Hospice,
Skilled Nursing Facility.

Larvnzoscorw - The direct visual examination of the larynx with a laryngoscope.

Limitimr Charze - The maximum amount that a nonparticipating physician is permitted to
charge for a service; a limit on balance billing. Starting in 1993, the limiting charge will be a
flat percentage of the Medicare Fee Schedule amount paid to nonparticipating physicians.

Maior Diamostic Categories (MDCS) - A classification system which groups the 467 DRGs
into 23 categories based on body systems (e.g., nervous system, respiratory system, etc.) and
disease origin. See Diagnostic-Related Group.

Medicaid - A health care program cooperatively administered by Federal and State
governments to provide medical assistance to eligible needy individuals.

Medical Review (MR) - A contractor activity performed as part of the claims processing
function to determine the medical necessity of services provided to beneficiaries.

Medicare Economic Index {MEI) - An index that tracks changes over time in physician
practice costs and general earnings levels. From 1975 through 1991, increases in prevailing
charge screens were limited to increases in the MEI.

Medicare Fee Schedule - The resource-based fee schedule currently used by Medicare to pay
for physicians’ services.

Occu~ational Therauv - Services designed to restore self-care, work, and leisure skills to
patients/clients who have specific performance incapacities or deficits that reduce their abilities
to cope with the tasks of everyday living.


                                            Glossary -4
OncoloEv - The sum of knowledge regarding tumors; the study of tumors.

_       - General term for an operation in which an artificial opening is formed, as in
colostomy, ureterostomy, etc.

Other Practitioners’ Services - Health care services of licensed practitioners other than
physicians and dentists.

Ortho~edic - Pertaining to the correction of deformities of the musculoskeletal system;
pertaining to orthopedics.

Outpatient - A person who comes to the hospital, clinic, or dispensary for diagnosis and/or
treatment but does not occupy a bed.

Outpatient Hosuital Services - Outpatient hospital services are preventive, diagnostic,
therapeutic, rehabilitative, or palliative services that are furnished to outpatients under the
direction of a physician or dentist by an institution that is licensed or formally approved as a
hospital by an officially designated authority for State standard-setting and meets the
requirements for participation in Medicare as a hospital.

Paid Amount - The portion of a submitted charge that is actually paid by both third-party
payers and the insured, including copayments and balance bills. See Submitted Charge.

Parenteral - Not through the alimentary canal, e.g., by subcutaneous, intramuscular,
intrasternal, or intravenous injection.

Part A of Medicare - The hospital insurance portion of Medicare; established by section 1811
of title XVIII of the Social Security Act of 1965, as amended; covers inpatient hospital care,
skilled nursing facility care, some home health agency services, and hospice care.

Part B of Medicare - The supplementary or “doctors” insurance portion of Medicare;
established by section 1831 of title XVIII of the Social Security Act of 1965, as amended;
covers services of physicians/other suppliers, outpatient care, medical equipment and supplies,
and other medical services not covered by the hospital insurance part of Medicare.

Periodic Interim Pavment (PIP) System - A system used by intermediaries to pay providers, in
which estimated Medicare reimbursement for the year is divided into equal, regularly spaced
payment amounts; enables a provider to manage its cash flow more easily.

Physical Theratw - The examination, treatment, and instruction of persons in order to detect,
assess, prevent, correct, alleviate, and lid physical disability, bodily malfimction, and pain
from injury, disease, and any other bodily and mental conditions. The practice of physical
therapy includes the administration, interpretation, and evaluation of tests and measurements
of bodily functions and structures and planning, administration, evaluation, and modification
of treatment and instruction, including the use of physical measures, activities, and devices for
preventive and therapeutic purposes.




                                            Glossary -5
Physician Services - Services furnished by, or under the direction of a licensed doctor of
medicine or osteopathy in the State where the services are performed. Physician services may
be provided in the physician’s office, the recipient’s home, a hospital, or a nursing facility.

Podiatry - The specialized field dealing with the study and care of the foot, including its
anatomy, pathology, medical and surgical treatment, etc.

Premium - An amount paid periodically to purchase medical insurance benefits; for Medicare
Part B services in 1992, beneficiaries paid a premiumof$31.80 per month.

PrinciDal Diagnosis - The condition established after study to be chiefly responsible for
occasioning the admission of the patient to the hospital for care.

Professional Com~onent - The part of a relative value or fee that presents the cost of a
physician’s interpretation of a diagnostic test or treatment planning for a therapeutic
procedure. See Technical Component.

Oualified Medicare Beneficiaries (0 MBs~ - QMBs are elderly or disabled persons whose
incomes are at or below specified percentages of the Federal poverty level.

Radiation Therauy - The treatment of disease by ionizing radiation. The purpose of radiation
therapy is to deliver an optimal dose of either particulate or electromagnetic radiation to a
particular area of the body with minimal darnage to normal tissues. The source of radiation
may be outside the body of the patient (external radiation therapy) or it may be an isotope that
has been implanted or instilled into abnormal tissue or a body cavity.

Reci~ient - An individual who has been determined to be eligible for Medicaid and who has
used medical services covered under Medicaid.

Relative Value Scale (RVS) - An index that assigns weights to each medical service; the
weights represent the relative amount to be paid for each service. The RVS used in the
development of the Medicare Fee Schedule consists of three cost components: Malpractice
Expense, Medicare Fee Schedule, and Physician Work/Practice Expense.

Relative Work Value (RWV) - An assigned value that reflects the average work of a physician
of average efficiency relative to an arbitrary standard. See Relative Value Scale.

Retroswxtive Cost-Based Reimbursement - A method of payment for hospitals/SNFs based on
the “reasonable costs” incurred for providing covered services to beneficiaries in the preceding
year(s).

Satellite Contractors - All Medicare contractors are “satellites” in the common work file
(CWF) system; this term is used to describe a Medicare contractor’s relationship to the CWF
Host as a satellite sends and receives data from the CWF database maintained by the Host;
See Common Working File.




                                            Glossary -6
Sector - A geographically defined area consisting of one Host contractor and its satellite
contractors. Sector is based on historical geographic claims processing patterns; there are 9
sectors nationwide. See Common Working File, Satellite Contractor.

Severity of Illness Index - A measure to reflect the relative level of loss of function and
mortality normally caused by a particular illness.

SiEmoidosco~y - Direct examination of the interior of the sigmoid colon.

Speech Thera~v - Therapy by a professional trained to identi~, assess, and rehabilitate
persons with speech or language disorders such as articulation, language, voice, or stuttering
problems.

&L@    - A rigid or flexible appliance for f~ation Of displaced or movable parts.

State Buv-In - This is the term given to the process by which a State provides supplementary
medical insurance and/or hospital insurance coverage for its needy, eligible persons by paying
their Medicare premiums through an agreement with the Federal Government.

Stress Test - A technique for evaluating circulatory response to physical stress produced by
exercise. The procedure involves continuous electrocardiographic monitoring during physical
exercise, the objective being to increase the intensity of physical exertion until a target heart
rate is reached or signs and symptoms of cardiac ischemia appear.

Submitted Charge - The actual charge submitted to the patient or a payer.     See Paid Amount.

Su@ementarv     Medical Insurance Promam (SMI) - See Part B (of Medicare).

&!PQ!@ - A provider Of health care services, other than a practitioner, that is permitted to bill
under Medicare Part B. Suppliers include independent laboratories, durable medical
equipment providers, ambulance services, orthotists, prosthetists, and portable x-ray
providers.

Technical Component - The part of a relative value or fee for a diagnostic test or therapeutic
procedure that represents the costs of performing the service, excluding the physician’s
interpretation or treatment planning. See Professioml Component.

Title XVIII of Social Securiw Act - Passed by Congress in 1965, and subsequently amended;
provides statutory authority for the Medicare program. Both section 1816 (Part A) and
section 1842 (Part B), provide for the “use” of “public agencies or private organizations” for
the administration of benefits on behalf of the Secretary.

Title XIX - The Medicaid program.

Tracheotomy - Creation of an opening into the trachea through the neck, with insertion of an
indwelling tube to facilitate passage of air or evacuation of secretions.




                                            Gkmsary - ~
Transcutaneous/Neuromuscular      Electrical Nerve Stimulation (TENS) - A procedure in which
mild electrical stimulation is applied by electrodes in contact with the skin over a painful area.
The stimulation interferes with the transmission of pain signals and helps to suppress the
sensation of pain in the area. Current is supplied by a hand-held, battery-operated pulse
generator.

Transurethral Resection (TURP) - Resection of the prostate by means of an instrument passed
through the urethra.

Truss - An elastic, canvas, or metallic device for retaining a reduced hernia within the
abdominal cavity.

LhM@- TO     bill for a service that is paid more than the service ac~ally provided.

Urinalysis - Analysis of the urine as an aid in the diagnosis. Many types of tests are used in
analyzing the urine in order to determine whether it contains abnormal substances indicative of
disease.




                                            Gkmsary -8
